             Report Fraud,
          Waste, and Abuse

            1-800-269-0271




                                THE
                                ROAD
www.socialsecurity.gov/oig      AHEAD
 SSA OIG Pub. No. 85-007
Published November 2005

                             Social Security Administration ~ Office of the Inspector General
                                              Semiannual Report To Congress
                                               April 1– September 30, 2005
Social Security Administration
Office Of e Inspector General

                                                                  How to Report Fraud
             Mission Statement                  The SSA OIG Fraud Hotline offers a means for you to provide
    By conducting independent and objective     information on suspected fraud, waste, and abuse. If you know of
    audits, evaluations, and investigations,    current or potentially illegal or improper activities involving SSA
    we improve the SSA programs and             programs or personnel, we encourage you to contact the SSA OIG
    operations and protect them against         Fraud Hotline.
    fraud, waste, and abuse. We provide
    timely, useful, and reliable information
    and advice to Administration officials,
                                                         Call       1-800-269-0271
    Congress, and the public.
                                                        Write       Social Security Administration
              Vision and Values                                     Office of the Inspector General
    We are agents of positive change striving                       Attention: SSA Fraud Hotline
    for continuous improvement in SSA’s                             P. O. Box 17768
    programs, operations, and management                            Baltimore, MD 21235
    by proactively seeking new ways to
    prevent and deter fraud, waste, and                   Fax       410-597-0118
    abuse. We are committed to integrity and
    to achieving excellence by supporting an
    environment that encourages employee              Internet      www.socialsecurity.gov/oig
    development and retention, and fosters
    diversity and innovation, while providing    To obtain additional copies of this report please visit our website
    a valuable public service.                                    at www.socialsecurity.gov/oig

                                                                       SSA Pub. No. 85-007
                                                                     Published November 2005
 April 1, 2005 – September 30, 2005                             SSA Office of the Inspector General




A Message from the Inspector General
In our first Semiannual Report to the Congress for Fiscal Year (FY) 2005,
issued in May 2005, we commemorated the 10th anniversary of the
establishment of the Social Security Administration (SSA) Office of
the Inspector General (OIG) by providing a detailed description of our
organization and its operations, in addition to our significant accomplishments
in the areas of audit, investigation, legal work, and management.
At that time, I noted that our organization had arrived at a crossroads. As we
embarked upon our second decade of service to SSA’s programs and to the
American people, we found ourselves looking back over our efforts to develop
robust audit and investigative capabilities and, at the same time, facing new
and complex challenges we hardly could have imagined at the time of our
creation in 1995.
To guide us along the road ahead, we have developed an excellent road map, our Strategic Plan for
FYs 2006 – 2010. is Plan reflects our vision, values, goals, objectives and responsibilities for the
coming years and sets the course to keep us focused on our ultimate destination, a comprehensive
Social Security program as free as possible from fraud, waste, and abuse.
e primary goals presented in our new Strategic Plan have informed our actions for some time,
both as part of our previous Strategic Plan and as a manifestation of the principles that have guided
OIG since its inception. us, it only seems logical to present our accomplishments for the second
half of FY 2005 in the framework of our new Strategic Plan goal areas—our impact on SSA’s
programs and operations; the value we provide to SSA, the Congress, and the public; and the
strategies we undertake to enhance the work experience of our people. You will read more about
these objectives, and how our efforts support them, in the narrative sections of this report.
As we undertake our journey on the road ahead, we do so eager to confront the challenges awaiting
us and energized by the many ways we can reaffirm our commitment to assuring the integrity and
reliability of the Social Security programs for the American people.


Sincerely,

S
Patrick P. O’Carroll, Jr.
Inspector General




                                                                                                        1
    Semiannual Report to Congress   April 1, 2005 – September 30, 2005




2
April 1, 2005 – September 30, 2005                                         SSA Office of the Inspector General




                    Semiannual Report to Congress
                                      The Road Ahead


              Table of Contents
              A Message from the Inspector General ..............................1

              Executive Summary ............................................................5

              Introduction to Our Organization .....................................7

              Impact .................................................................................8

              Value ................................................................................ 23

              People............................................................................... 35

              Appendices and Reporting Requirements ....................... 39

               Glossary of Acronyms .................................................... 56




                                                                                                                 3
    Semiannual Report to Congress   April 1, 2005 – September 30, 2005




4
April 1, 2005 – September 30, 2005                              SSA Office of the Inspector General




Executive Summary
As we embark upon our second decade of service to the American people, we reemphasize
our commitment to assuring the integrity and reliability of the Social Security programs
upon which so many Americans depend for their economic security. In our efforts to prevent
fraud, waste, and abuse in SSA’s program and operations, we are focusing on three major
strategic areas:
    •    Our impact on SSA’s programs and operations;
    •    e value we provide to SSA, the Congress, and the public; and
    •    e initiatives we undertake to enhance the work experience of our people.
Our noteworthy achievements are documented in the sections of this report that correspond
to our areas of strategic focus. Our combined efforts in the areas of audit, investigation, and
legal work generated a positive return of $9 for every dollar invested in OIG. e following
information summarizes our achievements for this reporting period.
Our auditors issued 54 reports with recommendations identifying over $184 million in
questioned costs and over $95 million in Federal funds that could be put to better use.
Our audit work covered areas ranging from wage reporting problems to Social Security
number (SSN) protection. We reviewed the instances where workers had earnings posted
to their records for years prior to the year in which they were enumerated and identified a
number of remedial actions for SSA to pursue. We also performed several audits dealing
with the Social Security and Supplemental Security Income (SSI) disability programs. In
addition, we evaluated SSA’s compliance with the Federal Information Security Management
Act and addressed a number of important SSA management issues, such as physical security
of SSA Hearing Offices (HO) and the removal of sensitive information from State Disability
Determination Services (DDS) excessed computers.
Our investigators reported over $132 million in investigative accomplishments, with
over $26 million in SSA recoveries, restitution, fines, settlements, and judgments and
over $105 million in projected savings from investigations resulting in the suspension or
termination of benefits. We closed over 5,700 criminal and administrative investigations,
resulting in over 2,600 arrests and indictments and over 1,600 convictions, civil monetary
penalty (CMP) assessments and apprehensions of illegal aliens.
We built on the success of the Cooperative Disability Investigation (CDI) program, a joint
effort of OIG, SSA, State DDSs and State and local law enforcement personnel, utilizing
18 CDI units located in 17 States to obtain sufficient evidence to identify and resolve issues
of fraud and abuse related to initial and continuing disability claims. During this reporting
period, the efforts of our CDI teams resulted in almost $68 million in SSA program savings.
In addition, we opened our 19th CDI unit in Los Angeles on September 30, 2005.




                                                                                       Executive Summary   •   5
             Semiannual Report to Congress                                    April 1, 2005 – September 30, 2005




              Our efforts to identify fugitive felons and parole and probation violators via automated
              data matches between SSA’s beneficiary rolls and a number of Federal and State warrant
              databases contributed to the arrest of over 6,700 fugitives during this reporting period—
              and a total of over 32,000 arrests since the program’s inception in August 1996.
              Included in the investigative accomplishments total is $435,075 in penalties and assessments
              that our attorneys imposed through our CMP program. During this reporting period, we
              initiated 79 cases involving false statements or representations made in connection with
              obtaining or retaining benefits or payments under Titles II and XVI of the Social Security
              Act (the Act) (Section 1129 cases). In addition, we processed 14 complaints and closed
              11 cases dealing with forms of misleading advertising and communication prohibited by
              Section 1140 of the Act because of improper use of SSA’s program words, symbols, or
              emblems. We resolved almost all of these cases through voluntary compliance.
              We continued our actions to strengthen Homeland Security through our audit and
              investigative activities which support a fortified enumeration process. Our efforts to
              combat SSN misuse to the greatest practical extent will discourage the establishment of
              false identities and will deter crimes that may be used to finance terrorism.
              During this period, we were fortunate to obtain the services of a key executive to help guide
              OIG upon the road ahead. We are pleased to announce the appointment of James A. Kissko
              as Deputy Inspector General. A former senior executive at SSA, Mr. Kissko also possesses
              a wide range of experience from his work with other Federal agencies. His experience and
              expertise greatly enhance OIG’s initiatives in planning, policy, and program development.




6 •   Executive Summary
 April 1, 2005 – September 30, 2005                                    SSA Office of the Inspector General




Introduction to Our Organization
SSA OIG is comprised of the Immediate Office of the Inspector General and four major components: the Office
of Audit, the Office of Investigations, the Office of the Chief Counsel to the Inspector General, and the Office of
Executive Operations.

I O   I G (IO)
IO provides the Inspector General with staff assistance on the full range of his responsibilities. IO staff provide
liaison services with all agencies sharing an interest or a role with OIG and assure coordination with Congressional
committees, SSA, the Social Security Advisory Board and the President’s Council on Integrity and Efficiency. e
Office of Quality Assurance and Professional Responsibility (OQAPR), part of the IO, is responsible for two critical
functions—it conducts exhaustive reviews of each of the OIG’s component offices to ensure compliance with Federal
laws and regulations, Agency policies, and relevant professional standards and also performs OIG’s Professional
Responsibility function, conducting thorough and timely investigations should allegations of misconduct be lodged
against an OIG employee.

O  A (OA)
OA conducts and supervises financial and performance audits of SSA programs and operations and makes
recommendations to ensure that program objectives are achieved effectively and efficiently. Financial audits assess
whether SSA’s financial statements fairly present SSA’s financial position, results of operations, and cash flow.
Performance audits review the economy, efficiency, and effectiveness of SSA’s programs and operations. OA also
conducts short-term management and program evaluations, and other projects on issues of concern to SSA, the
Congress, and the general public.

O  I (OI)
OI conducts and coordinates investigative activity related to fraud, waste, abuse, and mismanagement in SSA programs
and operations. is includes wrongdoing by applicants, beneficiaries, contractors, and third parties, as well as by SSA
employees while performing their official duties. is office serves as OIG liaison to the Department of Justice (DOJ)
on all matters relating to the investigation of SSA programs and personnel. OI also conducts joint investigations with
other Federal, State, and local law enforcement agencies.
O   C C   I G (OCCIG)
OCCIG provides independent legal advice and counsel to the Inspector General on a wide range of issues, including
statutes, regulations, legislation, and policy directives. OCCIG advises the Inspector General on investigative
procedures and techniques, as well as on legal implications and conclusions to be drawn from audit and investigative
material. OCCIG also administers the CMP program. is office manages OIG’s external and public affairs program,
preparing OIG publications and handling Congressional, media and public requests for information.

O  E O (OEO)
OEO provides administrative and management support to the Inspector General and OIG components. OEO
formulates and executes the OIG budget and confers with the Office of the Commissioner, the Office of Management
and Budget (OMB) and the Congress on budget matters. OEO is responsible for strategic planning and performance
reporting, and facility and property management. OEO develops and maintains OIG’s administrative and management
policy and procedures and performs all human resource support activities for OIG. OEO also plans, designs, develops,
tests, implements, and maintains hardware, software, and telecommunications networks to support OIG’s mission.

                                                                            Introduction to Our Organization      •       7
                 Semiannual Report to Congress                                   April 1, 2005 – September 30, 2005




           Impact
           OIG is committed to enhancing SSA’s effectiveness and efficiency through our investigations,
           audits, and legal activities. Our efforts are designed to have maximum impact on SSA’s
           programs and operations in order to best assure the continued integrity and reliability of
           the Social Security programs.
           During this reporting period, we completed a number of audits, investigations, and legal
           initiatives, covering major SSA program and management areas, which have significant
           impact on the deterrence of fraud, waste, and abuse. e summaries presented below are
           indicative of our work in this area.

           Audit Impact Initiatives
           OA contributes to this objective by conducting and supervising comprehensive financial and
           performance audits of SSA’s programs and operations and by making recommendations
           to maximize the effective operation of the Social Security programs. ese audits, along
           with short-term management and program evaluations, focus on those SSA programs and
           activities most vulnerable to fraud and abuse.

           Wage Reporting: Reported Earnings Prior to the Issuance of an SSN
           SSA provides Old-Age, Survivors and Disability Insurance (OASDI) benefits to individuals
           based on their lifetime earnings reported under a valid SSN. ese earnings determine
           whether an individual has enough quarters of coverage, or work credits, to potentially qualify
           for SSA benefits. SSA issues a Social Security card displaying the name and SSN of the
           numberholder, as well as any restriction on the individual’s right to work in the United States,
           where appropriate. While U.S. citizens are automatically entitled to work, noncitizens do
           not have this same right. Non-work SSNs may be issued to noncitizens who meet certain
           requirements, but are not authorized by the Department of Homeland Security (DHS)
           to work in the United States.
           In FYs 2003 and 2004, we conducted reviews related to unauthorized work. At that
           time, SSA had been receptive to our recommendations to work with DHS to determine
           what information would be most beneficial for meeting organizational goals (particularly
           regarding the means to establish compatibility between agencies’ data files and the
           importance of following all policies and procedures when enumerating individuals in the
           field offices (FOs)). Results of that audit were an indicator that further opportunities for
           improvement still exist. We performed this audit to determine why individuals’ records
           indicated work activity prior to their being enumerated by SSA.
           Our review found the majority of our 100 sample cases, where individuals were enumerated
           in Calendar Year (CY) 2000 and had earnings posted to their records for prior years, related
           to noncitizens who appeared to be: (1) working without proper authorization prior to
           CY 2000; and/or (2) misusing SSNs. Specifically, 85 of the 100 sample cases involved
           noncitizens who, according to available DHS records, were not authorized to work at the



8   •   Impact
 April 1, 2005 – September 30, 2005                             SSA Office of the Inspector General




time they earned their wages. (All of these noncitizens may be entitled to benefits related
to those earnings if they meet all factors of entitlement, even under the new restrictions
put in place by Congress.) We also found that 63 of the 85 noncitizens appeared to have
committed some form of SSN misuse in the workplace. We identified other issues related to
the individuals in our sample, including individuals with more than one SSN, an erroneous
wage posting to a child’s record before he was born, and data inconsistencies within SSA’s
records, as well as inconsistencies between SSA’s and DHS’ records.
To improve the quality of information within SSA’s records, we recommended that SSA
(1) discuss these potential violations of immigration laws with DHS officials; (2) review and
correct (as appropriate) the earnings records from our sample cases where an individual had
more than one SSN and wages still need to be transferred to the appropriate account; and
(3) verify with DHS and correct (as appropriate) the records from our sample cases where
the citizenship, work authorization, and other identifying information were inconsistent
between SSA’s and DHS’ records.
Overall, SSA agreed with our recommendations. SSA acknowledged that the intentional
misuse of SSNs by non-citizens not authorized to work is a major contributor to the growth
of the Earnings Suspense File (ESF).

SSN Protection: SSN Cards Issued After Death
is audit assessed whether SSA complied with its policy concerning the issuance of original
and replacement SSN cards for individuals who were deceased. Under limited circumstances,
SSA may assign an original SSN after a person’s death, such as when a parent requests an
SSN for a deceased child because the SSN is needed to secure health insurance coverage
to pay the child’s expenses. In November 2002, SSA amended its policy by eliminating
provisions that previously allowed for issuance of replacement cards on behalf of deceased
numberholders.
From December 1987 through November 2003, SSA issued 13 original SSN cards and
12,069 replacement SSN cards on behalf of numberholders with a date of death recorded in
SSA’s records. While the original card issuances complied with SSA policy, the replacement
card issuances did not comply with the policies for controlling or issuing replacement cards
when SSA’s records indicated the numberholder was deceased. Specifically, even after the
November 2002 policy change, SSA issued 1,068 replacement cards with SSNs of individuals
whose records contained a date of death. In addition, we identified 537 replacement card
issuances where the name and date of birth information provided on the application did
not match the information of the deceased person listed in SSA’s records. We also reported
that SSA paid $1.6 million in survivors benefits to auxiliary beneficiaries of 19 individuals
who applied in person and received 3 or more replacement cards after the date of death
appearing in SSA records. In 15 of the 19 cases, SSA approved the applications and issued
replacement cards at the same time survivors benefits were being paid to the applicant’s
auxiliary beneficiaries. In all 19 cases, SSA had either already paid or was currently paying
survivors benefits to the auxiliaries of numberholders at the time the numberholder applied
for and received at least three replacement cards.




                                                                                                      Impact   •   9
                  Semiannual Report to Congress                                  April 1, 2005 – September 30, 2005



            In issuing replacement SSN cards on behalf of numberholders with a recorded date of death, we
            found that SSA employees: (1) accepted documentation that did not appear to sufficiently establish
            the identity of the individual who requested the card, and (2) could process and issue replacement
            cards without removing the death entry that appeared on the numberholder’s record.
            To assist SSA in ensuring the integrity of the enumeration process for deceased individuals, we
            recommended that SSA: (1) ensure compliance with SSA policy concerning the issuance of
            replacement SSN cards for individuals whose records indicate they are deceased; (2) determine
            whether information needs to be corrected in the individual records associated with the
            questionable issuances identified within the report and refer any potentially fraudulent cases to
            OIG for investigation; (3) determine the appropriateness of current survivors payments being
            made under the individuals’ account discussed in the report; and (4) review its procedures for
            paying survivors payments to auxiliaries when evidence indicates that the numberholder is not
            deceased.
            SSA agreed with our recommendations.

            Representative Payee Issue: Nationwide Survey of Individual
            Representative Payees for SSA
            In our Semiannual Report for the period October 2004 – March 2005, we reported on a nationwide
            review of individual representative payees who serve 14 or fewer beneficiaries. Our objective was
            to confirm that the beneficiaries were still alive and, through personal observation and interviews,
            determine that their food, clothing, and shelter needs were being met. To accomplish our objective,
            we selected a random sample of 275 representative payees.
            At the time of our earlier FY 2005 edition, we issued reports on 5 of the 10 SSA regions. During
            this period, we completed our reports of the remaining 5 regions (Philadelphia, Atlanta, Chicago,
            Kansas City, San Francisco) and summarized the work completed in each of SSA’s respective
            regions in 10 separate reports.
            We confirmed the existence of all 359 beneficiaries who were in the care of 275 representative
            payees in our sample. We found, for most beneficiaries, that the food, clothing, and shelter needs
            were being met. For these individuals, nothing came to our attention that would lead us to believe
            that the representative payees did not use the Social Security benefits received for the beneficiaries’
            needs.
            Although most of the beneficiaries’ needs were being met, we found that eight representative
            payees acted as conduit payees (giving the funds directly to the recipient instead of administering
            the funds for their care and expenses), and that five payees failed to report to SSA events that may
            have affected a beneficiary’s eligibility or payment amount.
            We recommended that SSA: (1) increase outreach efforts to educate representative payees on
            their responsibility to manage the beneficiaries’ funds appropriately and to report any changes
            that may affect their capacity to serve as the representative payee or that may affect beneficiaries’
            eligibility or benefit payment amounts, and (2) take appropriate follow-up actions to ensure the
            recommendations reported to the Regional Commissioners are implemented.
            SSA agreed with our recommendations.



10   •   Impact
 April 1, 2005 – September 30, 2005                             SSA Office of the Inspector General




SSA Agency Operations: FY 2005 Evaluation of SSA’s Compliance with
the Federal Information Security Management Act of 2002 (FISMA)
e purpose of our audit was to determine whether SSA’s overall security program and practices
complied with the requirements of FISMA.
FISMA provides the framework for securing the Federal Government’s information technology
including both unclassified and national security systems. All agencies must implement the
requirements of FISMA and report annually to OMB and the Congress on the effectiveness of
their security programs.
OMB uses the information to help evaluate agency-specific and Government-wide security
performance, develop its annual security report to Congress, assist in improving and maintaining
adequate agency security performance, and inform development of the eGovernment Scorecard
under the President’s Management Agenda.
During our FY 2005 FISMA evaluation, we determined that SSA has generally met the
requirements of FISMA. SSA continues to work towards maintaining a secure environment
for its information and systems and has made improvements over the past year to further
strengthen its compliance with FISMA. Among the elements of its secure environment are
sound remediation, certification and accreditation, and inventory processes. To fully meet the
requirements of FISMA and enhance information management in this area, we recommended
that SSA should: (1) fully comply with its risk models and configuration guides; (2) ensure that
the Continuity of Operations Plan is updated and tested appropriately; (3) improve monitoring
of contractor security awareness training; and (4) formalize the policy and procedures for
maintaining the systems inventory.

SSN Protection: SSN Misuse in the Service, Restaurant, and Agriculture
Industries
Because SSA calculates future benefit payments based on the earnings an individual has
accumulated over his or her lifetime, accuracy in recording those earnings is critical. SSA’s
ability to accurately record earnings greatly depends on employers and employees reporting
names and SSNs correctly on Form W-2,    . SSA uses automated
edits to match employees’ names and SSNs with its records to ensure that earnings are properly
credited to the Master Earnings File. SSA places wage items that fail to match name and SSN
records into its ESF.
Our analysis of ESF data, and interviews with employers and industry associations, shows that
SSN misuse in the service, restaurant, and agriculture industries is widespread. For example, for
Tax Years (TYs) 1999 through 2001, the 300 employers we reviewed submitted over 2.7 million
wage items for which the employee’s name and/or SSN did not match SSA records. ese wage
items represented $9.6 billion in suspended earnings over the 3-year period. In total, 14 percent
of the wage items submitted by these 300 employers did not match names/SSNs contained in
SSA files. For the 100 agriculture employers, about 48 percent of the wage items they submitted
failed to match SSA records. We also identified various types of reporting irregularities, such
as invalid, unassigned, and duplicate SSNs, as well as SSNs belonging to young children and
deceased individuals.


                                                                                                      Impact   • 11
                  Semiannual Report to Congress                                 April 1, 2005 – September 30, 2005




             Although we found that SSA had taken steps to combat SSN misuse, we believe SSA’s ability to
            reduce such activity is hampered because employers do not routinely use the Agency’s Enumeration
            Verification Service. Furthermore, we did not identify any instances where the Internal Revenue
            Service (IRS) had imposed available civil penalties against employers who submitted inaccurate wage
            reports. In addition, we believe that privacy and disclosure issues (that is, the inability to routinely
            share information regarding employers who filed large numbers or percentages of wage statements
            with inaccurate SSNs) have limited collaborative efforts between SSA and DHS.
             We recommended that SSA (1) continue to collaborate with IRS regarding wage reporting issues;
            and (2) encourage IRS to require employers who file large numbers or percentages of wage statements
            with inaccurate SSNs to verify employees’ SSNs.
            SSA agreed with Recommendation 1, but disagreed with Recommendation 2. SSA stated it will
            continue to offer and encourage all employers to use the free verification services for wage reporting.
            Furthermore, SSA stated it will defer to IRS as to whether specific employers should be required to
            use the verification services. While we acknowledge that the IRS governs the wage reporting process,
            we continue to believe SSA should encourage the IRS to require employers who file large numbers
            or percentages of wage statements with inaccurate SSNs to verify employees’ SSNs. As discussed in
            the report, the IRS is considering requiring egregious employers to verify employees’ SSNs.

            Wage Reporting: Unauthorized Work SSNs at the Department of
            Defense (DoD)
            In conducting this audit, we wanted to determine whether: (1) employees of DoD reported earnings
            under nonwork SSNs during TYs 1999 – 2003 and (2) SSA has taken steps to assist DoD in
            identifying these employees.
            SSA assigns nonwork SSNs to noncitizens lacking DHS work-authorization and who have valid
            nonwork reasons for the SSNs. In recent years, SSA has strictly limited the assignment of these
            numbers. Despite the fact that such SSNs are not to be used for work purposes, some noncitizens
            continue to work with these numbers and SSA posts the earnings reported under these nonwork
            SSNs. Furthermore, SSA annually sends DHS an electronic data file, called the Nonwork Alien
            (NWALIEN) file, providing information on noncitizens that have earnings recorded under SSNs
            assigned for nonwork purposes. is file is sent 6 – 18 months after the earnings occur.
            For TYs 1999 – 2003, we found that 5,192 DoD employees were working under SSNs which were
            originally issued as nonwork SSNs. For these employees, DoD components submitted 19,777 
               totaling approximately $573 million in wages. Approximately 69 percent of
            these DoD employees were born in 10 foreign countries—the top 3 countries being the Philippines,
            Taiwan, and China. SSA provided the names of these employees to DHS as part of the NWALIEN
            file because their wages were reported with SSNs that were assigned to noncitizens for nonwork
            purposes. It is possible that many of these employees were authorized to work in the U.S. economy
            because DHS does not routinely inform SSA when it changes a person’s employment status from
            unauthorized to authorized. (Unless the person informs SSA directly of such a change, SSA’s records
            will continue to show the person as not authorized for employment and SSA will continue to input
            his or her earnings on the NWALIEN file.)
            DHS has also placed additional requirements on employers to verify the work-authorization of new
            employees, allowing employees to prove their legal right to work in the United States, regardless of

12   •   Impact
April 1, 2005 – September 30, 2005                               SSA Office of the Inspector General




the type of SSN issued by SSA. In addition, DoD has agreements with SSA and DHS to verify
the status of some DoD employees. Finally, SSA and DHS have a voluntary program, the Basic
Pilot, to assist employers in verifying the SSN and work-authorization of employees. is program
was designed to assist employers in verifying employment eligibility of newly hired employees.
We found that the Army and Coast Guard are registered users of the Basic Pilot; however, we
did not find evidence that the remaining DoD components were registered users.
To assist SSA in achieving its goal to increase the accuracy of its records, we recommended SSA:
(1) work with DoD and DHS, as appropriate, to share information on all existing employees,
military and civilian, working under nonwork SSNs so that SSA’s records can reflect changes
in an employee’s work-authorization; and (2) encourage all DoD components to participate in
the expanded Basic Pilot so they can verify the SSN and work-authorization of new employees
against both SSA and DHS records.
SSA agreed in part with Recommendation 1, noting that it does not have the legal
authority to disclose nonwork status to employers, including DoD. SSA agreed in full with
Recommendation 2.

SSA Agency Operations: Access to Secured Areas in Regional HOs
In our first Semiannual Report for FY 2005, we reported on physical security audits we conducted
at Office of Hearings and Appeals (OHA) HOs in four SSA regions. During this reporting
period, we completed physical security audits at 12 OHA HOs – 2 HOs in each of six regions
(New York, Chicago, Kansas City, Denver, San Francisco, and Seattle). e objective of our audits
was to review controls over access to secured areas in the HOs. We have completed reviews in
all 10 SSA regions.
OHA operates one of the largest administrative adjudicative systems in the world. Claims folders
containing sensitive information about the claimant such as SSNs and private medical information
are stored, reviewed, and moved throughout the HO. Both SSA employees and authorized
non-SSA employees are onsite conducting work in many different capacities in HOs. OHA must
ensure that its employees, facilities and records are safeguarded against security threats. OHA
has policies and procedures for physical security to safeguard HO access, protect Government
property, and protect onsite personnel and sensitive data.
Our findings and recommendations in the 12 hearing offices related to:
             •    Intrusion detection systems;
             •    Installing and testing duress alarm systems;
             •    Changing locks and pass codes when employees leave permanently;
             •    Controls over keys;
             •    Proper disposal of sensitive documents;
             •    Non-employees having access to employee work space; and
             •    Lack of peepholes on doors.



                                                                                                       Impact   • 13
                  Semiannual Report to Congress                                 April 1, 2005 – September 30, 2005



          For example, with regard to intrusion detection systems: (1) HOs were not changing the pass codes
          when employees left OHA employment; (2) management was not periodically testing the systems and
          recording the test results; and (3) HOs were issuing the same system access codes to all employees,
          thereby limiting management’s ability to properly monitor the use of the system.
          Our 6 reports contained 47 recommendations. SSA agreed with our recommendations and has either
          taken or scheduled corrective actions for each recommendation.

          Benefit Payment Issue: OHA Pre-Effectuation Review (PER) Process
          is audit analyzed the effectiveness of the OHA Pre-Effectuation Review process.
          In August 1998, SSA began the PER process of Administrative Law Judge (ALJ) decisions. e OHA
          PER process is a quality control review of a sample of cases having favorable decisions by ALJs, that
          is, those where the ALJs disagreed with SSA’s initial determinations and found the claimants eligible
          to receive disability benefits. is process allows the Office of Quality Assurance and Performance
          Assessment (OQAPA) to review allowance decisions made by ALJs and, if it disagrees with the
          decision made by an ALJ, refer them to the Appeals Council (AC) for review. Once referred, the
          AC considers the case and OQAPA’s reasons for believing the decision should be reviewed. After its
          review, it can affirm the decision or remand the case back to the ALJ who initially decided the case
          to allow for further review and a final disability determination.
          Our review found the OHA PER process could be more effective in improving the implementation
          of the policies related to ALJ decision making. e process consistently identified cases where Social
          Security Rulings were not applied, or were improperly applied, from one year to the next. is
          condition led to a lack of evidence to support the ALJs’ original decisions and prompted the AC to issue
          remand orders. Additionally, some ALJs did not address the concerns identified in the AC’s remand
          orders before making revised decisions on the eligibility of claimants. Finally, less than 5 percent of
          the cases we reviewed ultimately resulted in a change to the original decisions made by ALJs, while
          the OHA PER process added an average of 342 days to the processing time of the cases.
          We recommended that SSA should continue to work to improve the OHA PER referral process to
          ensure that cases forwarded by OQAPA to the AC, and those remanded by the AC to ALJs, have a
          higher probability of reversal.
          SSA agreed, in part, with our recommendation. It agreed that it should continue efforts to improve
          the OHA PER process, but stated that the purpose of the process was not to ensure that the cases
          reviewed have a higher probability of reversal.

          SSN Protection: DDSs’ Use of SSNs on ird-Party Correspondence
          Our objective in conducting this audit was to determine whether DDSs were complying with SSA’s
          revised policy limiting the disclosure of SSNs to third parties.
          Our December 2002 report, Review of Social Security Administration Controls over the Access, Disclosure
          and Use of Social Security Numbers by External Entities, identified instances in which DDS personnel
          unnecessarily displayed SSNs on documents and questionnaires sent to third parties. In response to
          this audit, SSA issued policy instructions to DDSs advising that SSNs should not be displayed on
          documents sent to external entities that do not need to know an individual’s SSN. However, we found
          SSA’s guidance did not specify which third parties would have a “need to know” the claimant’s SSN.


14   •   Impact
 April 1, 2005 – September 30, 2005                              SSA Office of the Inspector General



As a result, DDSs inconsistently applied SSA’s policy and have included the SSN on correspondence to
various third parties, many of whom we believe did not need the SSN to locate and provide disability
information to DDSs.
We determined that 51 (98 percent) of the 52 DDSs provide SSNs to at least one of the following
third parties: medical providers, employers, educational sources, and friends and/or relatives of the
claimant. In addition, many of the DDSs disclosed SSNs to interpreters who assisted claimants who
did not speak English or were hearing impaired.
We recommended that SSA: (1) clarify existing policy to define which third parties may be
provided a claimant’s SSN as a part of the DDS’ disability determination process; (2) evaluate
the viability of eliminating a claimant’s SSN from the Form SSA-827 ( 
      ) or explore alternatives
to displaying the entire SSN on the form; and (3) implement policy requiring DDSs to develop and
use confidentiality agreements prohibiting language interpreters from disclosing SSNs and other
personal information to unauthorized parties.
SSA agreed with our recommendations.

SSA Agency Operations: Removal of Sensitive Information from Excessed
Computers by State DDSs
Our audit evaluated the policies and procedures that State DDSs follow when excessing computer
equipment to ensure that sensitive information is removed prior to the computer’s disposition.
e SSA DDS Security Document (DSD) requires DDSs to run an SSA-approved software utility
on DDS equipment that was used for the storage of sensitive information (servers, workstations,
laptops, etc.) prior to disposal or donation to another entity. To test whether equipment had been
properly cleansed of sensitive data prior to being excessed, we selected four DDS sites and requested
a list of computer equipment onsite ready for disposal.
We found that data had been removed properly from all excess servers, laptop and desktop computers
that we tested forensically. However, we noted that there is not an appropriate method for ensuring that
data is irretrievable from obsolete Wang computers. In addition, the DSD does not clearly mandate
a method for removing data from other storage media, such as server tapes. As a result, we believe
sensitive information on obsolete Wang computers and server tapes is at risk.
We recommended that SSA: (1) direct DDSs either to ensure data is irretrievable or physically remove
and destroy the hard drives on computers to be excessed; (2) modify or update their guidance regarding
the proper method of removing data from and disposing of obsolete server tapes; and (3) ensure DDS
personnel are aware of the policy and procedures to dispose of any claimant data in such a manner as
to make the data irretrievable to unauthorized personnel.
SSA agreed with our recommendations.

        Our OIG audit reports are available online on
         our website at www.socialsecurity.gov/oig


                                                                                                       Impact   • 15
                  Semiannual Report to Congress                                 April 1, 2005 – September 30, 2005




                  Investigative Impact Initiatives
                  Our OI examines allegations of fraud, waste, and abuse in SSA programs and operations.
                  is includes benefit fraud, SSN misuse, violations by SSA employees, and grant and
                  contract fraud. Our investigations often result in criminal or civil prosecutions and
                  CMPs against offenders. ese investigative efforts also impact SSA program integrity
                  by deterring those contemplating fraud against SSA in the future. Our work in the areas
                  of employee misconduct, program fraud, enumeration fraud and SSN misuse ensures
                  the reliability of SSA programs and their future operations.




                                                      Investigative Results

                                                           10/01/04 –     4/01/05 –       FY 2005
                                                            3/31/05        9/30/05         Total

                            Allegations Received                38,171        46,748           84,919

                            Cases Opened                         4,355         5,175            9,530

                            Cases Closed                         4,233         5,770           10,003

                            Arrests/Indictments                  1,896         2,636            4,532

                            Total Judicial Actions               1,128         1,641            2,769

                              Criminal Convictions                963          1,196            2,159

                              Civil/CMPs                           37            56                 93

                              Illegal Alien Arrests               128           389               517




16   •   Impact
April 1, 2005 – September 30, 2005                         SSA Office of the Inspector General




                             Allegations Received by Category

                                           10/01/04 –    4/01/05 –
                                                                       FY 2005 Total
                                            3/31/05       9/30/05

         SSI Disability                         16,444       16,619            33,063

         Disability Insurance                   12,510       19,130            31,640

         SSN                                     4,593        6,313            10,906

         Old-Age and Survivors Insurance         2,956        2,971             5,927

         Other                                     724          846             1,570

         Employee                                  530          509             1,039

         SSI Aged                                  414          360               774

         TOTAL                                  38,171       46,748            84,919




                              Allegations Received by Source

                                           10/01/04 –    4/01/05 –
                                                                      FY 2005 Total
                                            3/31/05       9/30/05

         Law Enforcement                        10,104       15,146            25,250

         Private Citizens                        9,688        9,362            19,050

         SSA Employees                           8,562       10,671            19,233

         Anonymous                               8,516       10,020            18,536

         Beneficiaries                            782          840              1,622

         Public Agencies                          510          687              1,197

         Other                                      9           22                 31

         TOTAL                                 38,171       46,748             84,919




                                                                                                 Impact   • 17
                  Semiannual Report to Congress                                   April 1, 2005 – September 30, 2005




                  e following case summaries highlight major investigations we conducted during the reporting
                  period which enhanced SSA program integrity and the reliability of SSA’s operations.

                  Cooperative Disability Investigation: “Blind” Disability Claimant Drives
                  Motor Vehicle
                  e Richmond CDI Unit investigated a 45-year-old man who filed for OASDI disability
                  benefits. e man claimed he had glaucoma, rendering him disabled and unable to work. e
                  man reported he was blind and was told by his doctor to stop working. He reported that his
                  loss of vision prevented him from driving, handling finances, and performing basic self-care.
                  e man’s spouse stated he required assistance with shaving; was unable to use the stove and
                  oven, handle money, or drive; and had difficulty walking due to his blindness. e Virginia
                  DDS referred this matter to the Richmond CDI Unit due to inconsistent statements made
                  by the claimant.
                  A CDI Unit investigator observed the man at his home independently walking down a flight
                  of steps without the use of any assistive devices or handrails. e man was then observed
                  entering a truck and driving away from his residence. Additional surveillance revealed the man
                  driving throughout the Richmond area and making several stops, including a gas station, where
                  he pumped gas, and a video store. On another occasion, the CDI Unit investigator observed
                  the man carrying several plastic and canvas bags to his truck. e man drove to an elementary
                  school, where he parked and went inside. He exited carrying a small child back to his truck.
                  e man’s disability claim was denied.

                  Fugitive Felon Program: Sexually Violent Predator Arrested in
                  Massachusetts
                  OI agents from our Boston Office, along with the U.S. Marshals Service and the Quincy,
                  Massachusetts Police Department, arrested a fugitive designated in the State of Maine as a
                  sexually violent predator. e fugitive, who was receiving SSI disability benefits, had been
                  convicted of molesting a 6-year-old girl and subsequently fled from Maine in violation of the
                  terms of his probation. In addition, he failed to register as a sex offender in Massachusetts. As
                  a result, warrants for his arrest were issued, but Maine law enforcement officials were unable to
                  locate him. We identified this individual through our Fugitive Felon program. Subsequent to
                  his apprehension for the outstanding Maine violations, the Norfolk County (Massachusetts)
                  District Attorney’s Office charged this individual with Failure to Register as a Sex Offender.
                  His benefits were suspended and he was extradited to Maine to face the outstanding charges.

                  SSA Employee Fraud: Illegal Immigrants Purchase Social Security Cards
                  from SSA Employee
                  e OI Office in Las Vegas initiated an investigation based on information from a local
                  restaurant employee that undocumented aliens employed at the restaurant had purchased valid
                  Social Security cards from an SSA employee. e restaurant employee identified one of the
                  individuals who had allegedly purchased a Social Security card. Our investigation determined
                  that the restaurant employee had provided fraudulent immigration documents with his SSN



18   •   Impact
 April 1, 2005 – September 30, 2005                              SSA Office of the Inspector General




application to an SSA employee, who knowingly verified them as genuine. Further investigation
of this employee’s transactions revealed that he had fraudulently issued at least 65 other Social
Security cards. A number of the individuals who obtained these cards indicated that they had
paid $500 – $1250 per card. A co-conspirator was identified and confessed to his participation
in the scheme.
e SSA employee pled guilty; was sentenced in July 2005 to 22 months’ incarceration, 3 years’
supervised release and 200 hours of community service; and was assessed a $20,000 fine.
Cooperative Disability Investigation: Undercover Investigator Discovers
Disability Claimant Operating Flooring Business
e Boston CDI Unit investigated a 37-year-old man who filed for OASDI and SSI disability
benefits based upon claims of back and neck pain, diverticulitis, depression, and anxiety. e
man’s application was initially denied, and he filed a request for reconsideration. e Boston
DDS referred this allegation to the CDI Unit, alleging possible work activity. e man asserted
on his       that he had not been gainfully
employed since 2003, and that he had difficulty cleaning, showering, and working.
e CDI investigation revealed that the man operated his own flooring business. Upon being
contacted by the CDI investigator under a pretext, the man provided an estimate for flooring
work and indicated that he performed the work himself. e investigator further observed the
man operating a company vehicle. e DDS denied the man’s disability claim.

Representative Payee Fraud: Former Gang Member Receives Benefits for
Child Not in His Custody
Our New Haven, Connecticut Office investigated a man who received SSI benefits from
1995 – 2002 on behalf of his son, despite the fact that his son was in the care of the State
of Connecticut. In an interview with OI agents, this individual admitted concealing the fact
that his son was not in his care during the relevant time period and misusing SSI benefit
money intended for his son. It was determined that the child was not entitled to SSI payments
because he was a ward of the State. Our investigation also revealed that the man was a former
high-ranking member of an active gang based in the State. He pled guilty and was sentenced
in June 2005 to 5 years’ probation and ordered to pay $36,856 in restitution to SSA.

SSA Employee Fraud: Former SSA Employee Applies for Credit Using
Fraudulently Obtained SSN
Our Greensboro, North Carolina Office received an allegation claiming that an SSA Service
Representative had improperly accessed the SSA mainframe to obtain a second SSN. e
employee admitted to OI agents in an interview that he attempted to use the new SSN to
apply for credit cards. He was placed on administrative leave by SSA and then removed
from employment. After his removal, he attempted to open a bank account with the SSN he
improperly issued to himself. e employee was indicted for furnishing false information to
SSA for the purpose of fraudulently obtaining a second SSN. He later pled guilty and was
sentenced to 2 years’ probation and was ordered to serve 48 hours of community service while
on probation.



                                                                                                       Impact   • 19
                  Semiannual Report to Congress                                April 1, 2005 – September 30, 2005




              Fugitive Felon Program: Long-Term Fugitive Apprehended after Applying
              for Retirement Benefits
              In September 2005, a York, South Carolina man was arrested by OIG agents and other members
              of the Long Island, New York Division of the U.S. Marshals Service’s Regional Fugitive Task
              Force. e fugitive was wanted on a 33-year-old warrant for assault, possession of a weapon,
              escape and trespass. In 1971, this individual shot a police officer during an attempted arrest and
              disappeared after the shooting. He remained missing and only recently reappeared to apply for
              Social Security retirement benefits in South Carolina. e man is expected to be extradited to
              New York to face trial proceedings.

              Cooperative Disability Investigation: Woman Fraudulently Claims Mental
              Problems and Back Pain
              e Houston CDI Unit investigated a 43-year-old woman who filed for SSI disability benefits,
              alleging disability due to mental problems and back pain. e Texas DDS referred this case to
              the CDI Unit because of conflicting information and suspicion of malingering at a consultative
              examination (CE). e woman reported that she could not do housework and was unable to take
              care of her personal hygiene because she was in pain. e woman also reported that she heard
              voices and could not remember things. At the CE, the woman stated that she lived in a nursing
              home due to her inability to function and care for herself independently.
              CDI investigators conducted a preliminary investigation that revealed a history of criminal
              offenses, including prostitution, assault, and theft. When investigators spoke in an undercover
              capacity with the woman, she stated that she was a housewife for her husband of 20 years, and
              cooked daily for her family. roughout the interview, she was very talkative and alert and seemed
              to have a good memory as she responded to all questions with accurate and appropriate responses.
              e investigators noted that the woman was neatly groomed. Although she mentioned having
              been in the hospital and having several surgeries on her shoulder, arm, and knee, the woman did
              not move about as though she were in pain. e woman told investigators that her mother owned
              a nursing home and occasionally stayed there. e woman’s disability benefits were denied.

              Legal Impact Initiatives
              OCCIG assures SSA program integrity from a different perspective through our administration
              of the CMP program, which enables OIG to impose penalties against individuals or entities
              violating Section 1140 of the Social Security Act (the Act). is section prohibits the use of SSA’s
              program words, letters, symbols, or emblems in advertisements or other communications in a
              manner that falsely implies SSA’s approval, endorsement, or authorization. An individual or
              entity that violates this provision is subject to a maximum penalty of $5,000 for each misleading
              communication. Our nationwide enforcement efforts serve as a meaningful deterrent in this
              area and continue to positively impact SSA’s mission. A pivotal case dealing with Section 1140
              sanctions occurred during this reporting period.




20   •   Impact
April 1, 2005 – September 30, 2005                               SSA Office of the Inspector General




U.S. Court of Appeals Upholds Penalty Amount Against Misleading
Mailer
In a published decision, the U.S. Court of Appeals for the Fourth Circuit upheld a $544,196
CMP that we imposed on the United Seniors Association, Inc. (U.S.A., Inc.), now doing
business as USA Next, for misleading mailers it sent to the public. In its decision, the Court
concluded that substantial evidence supported the ALJ’s findings in the 2003 administrative
hearing. Specifically, the Court found that the mailers’ repeated references to “Social Security,”
their “Social Security Alert” border, their phony handling instructions, and other misleading
features could reasonably lead recipients to believe the envelopes contained official information
relating to their Social Security benefits which must be addressed expeditiously. e Court
also found no merit in U.S.A., Inc.’s argument that Section 1140 is unconstitutionally vague
or overbroad. e Court further found that misleading envelopes of solicitations may violate
Section 1140 regardless of the contents of the solicitations.
 e Court’s Opinion Is Available At 2005 U.s. App. Lexis 18310 (August 25, 2005).
                                        For every case that results in a monetary penalty, far
                                        more end in voluntary compliance with the law, which
                                        protects the public from falling victim to misleading
                                        and manipulative advertising. e following cases are
                                        representative of our work in this area.

                                        Law Firm Ceases Misleading Advertising
                                       A Texas law firm advertised its services on a billboard, in
                                       close proximity to a Social Security FO, using the image
                                       of a Social Security card. e use of this official image,
                                       in conjunction with the rest of the billboard design,
                                       contributed to conveying the false impression that the
                                       firm was endorsed or authorized by, or affiliated with,
                                       SSA. We issued a letter ordering the firm to cease and
desist from using the image of the Social Security card in such a misleading manner. e law
firm agreed to redesign the billboard without the image of the Social Security card and erected
a new billboard a short time later.

D.C. Non-Profit Agrees to Stop Mailing Misleading Solicitations
A Washington, D.C. non-profit organization mailed solicitations related to its lobbying efforts.
On the solicitation envelopes, the organization did not identify itself by name as the sender
and marked the envelope,
      “SOCIAL SECURITY INFORMATION—FOR ADDRESSEE ONLY .”
is contributed to the impression that the mailer was endorsed or authorized by, or affiliated
with, SSA. We contacted the organization about the misleading mailer. Its Director of
Membership Programs agreed to discontinue use of the misleading design on their envelopes
in the future. We will continue to monitor this organization for any similar complaints.



                                                                                                       Impact   • 21
                  Semiannual Report to Congress                            April 1, 2005 – September 30, 2005



            e following table presents our Section 1140 accomplishments for this reporting period.




                                  Misleading Advertising Under Section 1140 Results


                                                      10/01/04 –         4/1/05 –
                                                                                             Total
                                                        3/31/05          9/30/05

                      Complaints Received                        20               14                34


                      New Cases Opened                            9               10                19


                      Cases Closed                               11               11                22


                        No Violation Found                        2                5                 7


                        Voluntary Compliance                      9                6                15

                         Settlement Agreement
                                                                  0                0                 0
                        (of cases/amounts)
                         Penalty/Court Action
                                                                  0                0                 0
                        (of cases/amounts)

                       Hearings Requested                         0                1                 1




22   •   Impact
 April 1, 2005 – September 30, 2005                               SSA Office of the Inspector General




Value
All OIG initiatives strive to provide value to SSA, the Congress, other key decision-makers,
and the public by delivering timely and reliable audit, investigative, and legal products and
services. To achieve the intended value, these products and services must effectively meet the
needs of all whom we serve while at the same time maximizing our available resources. To do
this, we integrate best-practice strategies and cutting-edge technology to maximize efficiency
while producing a positive return on investment to the public.
Taken together, our audits, investigations, and legal efforts generated a positive return of $9 for
every dollar invested in OIG activities.
Value Attained rough Audits
e focal point of many of our audits is the identification of SSA program and operational
areas where funds could be put to better use. In addition, we have often isolated situations
where we have questioned approaches and their costs and have recommended alternatives to
yield program and operational savings.
During this reporting period, our auditors issued 54 reports with recommendations identifying
over $184 million in questioned costs and over $95 million in Federal funds that could be put
to better use. Several of our more notable audits are summarized below.

Benefit Payment Audit: Follow-up of Pending Workers’ Compensation:
SSA Can Prevent Millions in Title II Disability Overpayments
In June 2003, we issued an audit report entitled Pending Workers’ Compensation: e Social
Security Administration Can Prevent Millions in Title II Disability Overpayments. at report
determined that SSA had a significant backlog of pending workers’ compensation (WC) cases.
Based on a sample review of these cases, we estimated that SSA overpaid 17,890 OASDI
beneficiaries almost $121 million because of unreported WC payments. We concluded that
if SSA did not take a proactive role in properly managing its pending WC workload, it would
continue to build a significant backlog of pending WC cases and would pay millions of dollars
in additional overpayments. SSA agreed to initiate actions to recover the overpayments we
identified and to conduct a study of its pending WC workload.
During this reporting period, we decided to determine the status of the corrective actions SSA
had taken to address the recommendations resulting from our 2003 report. We found that SSA
had initiated actions to recover those OASDI disability overpayments we previously identified
and had studied its pending WC workload. However, it had not taken corrective actions to
identify and prevent such overpayments and manage its WC workload.
We encouraged SSA to fully implement the recommendations we made in our June 2003 report.
Specifically, SSA needs to: (1) follow through with steps to reduce its backlog of OASDI
disability cases having pending WC claims; (2) develop and implement an automated process to
ensure that it systematically and routinely follows up on new pending WC cases; and (3) explore
systems enhancements that would detect situations in which WC is not applicable to prevent
personnel from retrieving and analyzing cases that no longer require development.


                                                                                                        Value   • 23
             Semiannual Report to Congress                                   April 1, 2005 – September 30, 2005




             SSA agreed with the findings and conclusions presented in the report, as well as the remaining
             recommendations from our June 2003 report.

             Benefit Payment Audit: Disabled SSI Recipients with Earnings
             is audit evaluated whether SSA considered the earnings of disabled individuals when
             determining SSI eligibility and payment amounts. SSA relies primarily on recipient self-
             disclosure of all financial resources. To detect unreported earnings, the Agency compares
             earnings recorded on its Master Earnings File (MEF) to the earnings used to calculate SSI
             payments as shown on the Supplemental Security Record. When significant discrepancies
             are found, diaries are established to alert SSA’s FO employees to the need for a review based
             on the match.
             Based on SSA’s administrative finality rules, determinations may be reopened and revised:
             within 1 year for any reason; within 2 years for good cause; or at any time if fraud or similar
             fault exists. When SSA discovers earnings discrepancies for prior years and administrative
             finality applies, revisions are limited to the time periods allowed under the rules. Even though
             individuals may have had earnings which would have caused SSI ineligibility if detected sooner,
             SSA does not pursue recovery of payments issued beyond these time periods and it does not
             record them as overpayments.
             Based on the results of our sample, we estimated that approximately $12.4 million in benefits
             was overpaid to about 11,880 recipients because SSA did not previously consider all of their
             earnings when calculating SSI payment amounts. We also estimated that, if SSA resolved the
             earnings discrepancies within the administrative finality periods, approximately $74.7 million
             in overpayments to about 61,380 recipients also would have been recognized. Finally, we
             estimated that about $8.1 million in underpayments to about 11,880 SSI recipients was not
             paid because administrative finality was invoked and their SSI records were not revised.
             We recommend that SSA (1) ensure that earnings-related diaries resulting from computer
             matches are adequately controlled by management and resolved timely, and (2) remind FO
             employees of correct procedures regarding reviewing and recording earnings data.
             SSA agreed with our recommendations.

             SSA Agency Operations Audit: SSA’s Match of Disability Insurance
             (DI) Records with Texas WC Payment Data
             is audit examined the status of SSA’s pilot project matching DI records with Texas WC
             payment data. Specifically, we evaluated procedures used to complete the matching process,
             summarized the impact of unreported and incorrectly reported Texas WC payments on
             DI benefits, and determined the status of collection and payment of over/underpayments
             identified during the matching process.
             We concluded that SSA had determined that it was cost-effective to use the WC data provided
             by Texas and to match that data with its records. e actual results identified 2,054 DI
             beneficiaries who received $11.49 million in benefits to which they were not entitled, while
             another 307 beneficiaries received $1.80 million less than entitled. We determined that



24 • Value
 April 1, 2005 – September 30, 2005                              SSA Office of the Inspector General




SSA’s process for conducting this match was effective and provided assurance that inaccurate DI
payments to Texas residents were detected and resolved. However, at the time of this review, SSA
had not extended its matching agreement with Texas, nor had the Agency aggressively pursued
similar agreements with other States. We estimated that SSA could identify approximately
$87 million in additional overpayments if it were to conduct data matches with the nine States
with the highest DI benefit payments and if the results of those matches were similar to those
in Texas.
We recommended that SSA: (1) continue to work with Texas to periodically obtain updated
WC data, and (2) pursue similar matching agreements with other States to obtain WC
information.
SSA agreed with our recommendations.

Benefit Payment Audit: SSA’s Administrative Finality Rules
Our objective in conducting this audit was to determine whether SSA consistently applied the
rules of administrative finality under the SSI program.
SSI is a needs-based program whose recipients are required to report to SSA changes in living
arrangements, income, or resources, which could impact monthly payments. According to SSA’s
rules of administrative finality, when a change occurs that impacts an individual’s payment amount,
the Agency limits revisions and overpayment assessments retroactively for up to 24 months unless
fraud or similar fault is found.
Our review showed that SSA’s administrative finality rules under the SSI program were not
consistently applied. Although no fraud or similar fault was found, some recipients were held
responsible for repaying SSI overpayments that were assessed beyond the 24-month period,
while others were not assessed any overpayments for months beyond the administrative finality
limit. Specifically, we estimated that approximately $74.7 million in SSI payments to about
53,058 individuals was assessed as overpayments beyond the 24-month limit. Of this amount,
we estimated that SSA recovered about $4.3 million and was pursuing recovery of an additional
$24.2 million as of September 30, 2004.
Limitations in SSA’s policies, procedures and computer systems—as well as misinterpretation
of the rules by SSA staff—contribute to the inconsistent application of administrative finality.
erefore, to assist the Agency in ensuring that SSI recipients are treated equitably, we
recommended that SSA: (1) develop specific policies and procedures for staff to follow when
revising overpayments that involve administrative finality; (2) provide comprehensive training to
SSA staff on the rules of administrative finality; and (3) enhance its computer systems to prevent
the revisions to monthly payments that preceded the administrative finality period when neither
fraud, nor similar fault, is found.
SSA agreed with our recommendations.




                                                                                                       Value   • 25
             Semiannual Report to Congress                                  April 1, 2005 – September 30, 2005




         Benefit Payment Audit: SSA’s Controls over the Suspension of SSI
         Overpayment Collection Efforts
         is audit evaluated whether SSA’s decisions to suspend collection efforts on SSI overpayments
         were made in accordance with its policies and procedures. Specifically, we reviewed overpayment
         suspension decisions for recipients that SSA classified as (1) unable or unwilling to pay or
         (2) unable to be located or out of the country. SSA can suspend collection of SSI overpayments
         in these situations.
         Our review found that SSA staff did not always comply with Agency policies and procedures to
         ensure decisions to suspend collection efforts on SSI overpayments were appropriate. Specifically,
         our review of 250 FY 2002 overpayment suspensions that exceeded $3,000 included a sample of
         175 randomly selected unable or unwilling to pay decisions and a separate sample of 75 randomly
         selected unable to locate or out of the country decisions. We determined that SSA did not always
         document the (1) justification for the suspension decision or (2) required management approval
         before suspending an overpayment. Moreover, SSA employees suspended overpayments when
         debtors or debtors’ representative payees had reported earnings that may have enabled some
         repayment of the debt. Finally, SSA personnel suspended debts and classified the debtor as unable
         to locate or out of the country, even though we found no evidence that SSA attempted to contact
         the debtor or representative payee through their employer. In total, 164 (65.6 percent) of the
         250 suspension decisions reviewed had 1 or more noncompliance errors. As such, for FY 2002
         overpayment decisions greater than $3,000, we estimated that SSA personnel did not fully comply
         with SSA policies and procedures in 12,060 cases totaling about $87.5 million.
         Included in the above findings was a $12,108 overpayment for an SSA employee. SSA collection
         records indicated that the debtor could not be located. SSA subsequently suspended collection
         efforts on the overpayment. However, we found that SSA earnings records available to SSA staff
         at the time of the suspension indicated the debtor was currently employed by SSA.
         Based on our findings, we recommended that SSA: (1) issue a reminder to SSA debt collection
         staff to fully develop and document overpayment suspension decisions; (2) ensure all overpayment
         suspension decisions exceeding established thresholds are reviewed and approved by appropriate
         SSA management officials; (3) periodically match debtors’ and representative payees’ earnings
         to suspended overpayments to identify instances in which some repayment of the debt is
         possible; (4) consider issuing further guidance allowing the collection of overpayments from a
         representative payee who is a parent of a minor child/beneficiary; and (5) take action to collect
         the $12,108 overpayment from a current SSA employee.
         SSA agreed with our recommendations.

         Benefit Payment Audit: Individuals Receiving Benefits Under Multiple
         SSNs at the Same Address
         We conducted this audit to identify and prevent individuals from receiving OASDI benefits
         and/or SSI payments inappropriately under multiple SSNs. In January 2004, we were alerted
         to three cases where beneficiaries inappropriately received benefits under multiple SSNs at the
         same address. To identify the extent of this situation, we analyzed a data extract of approximately
         54 million OASDI and SSI beneficiaries who received benefits in February 2004. Based on our


26 • Value
 April 1, 2005 – September 30, 2005                             SSA Office of the Inspector General



analysis of the SSNs, address information and benefit records, we identified 354 beneficiaries who
may have received benefits inappropriately under at least two different SSNs at the same address.
Because of our review of these 354 cases, SSA assessed almost $9.2 million in overpayments for
220 beneficiaries who inappropriately received benefits. We also believe SSA avoided paying an
estimated $1.4 million by stopping these incorrect payments.
We found that 182 of the 220 cases had overpayments totaling about $8.6 million and these cases
are being investigated for possible fraud on the part of the beneficiary. For example, we identified a
54-year old recipient who obtained a second SSN using a friend’s last name for the sole purpose of
receiving a second SSI payment. From August 1991 until July 2004, SSA overpaid this recipient
$89,654. Additionally, 38 beneficiaries were overpaid $565,403 for reasons other than possible fraud
(such as staff keying errors).
We recommended that SSA improve its existing controls—the SSI Duplicate Payment Project and
the Master File Duplicate Detection Operation—and enhance its efforts to identify and prevent
beneficiaries from receiving both SSI and OASDI benefits under different SSNs. SSA agreed with
our recommendations.
Value Attained rough Investigations
e efforts of our investigators similarly yielded a significant return on investment arising from the
successful prosecution of cases we developed. During this reporting period, our investigators achieved
over $249 million in investigative accomplishments, with almost $55 million in SSA recoveries,
restitution, fines, settlements, and judgments and over $194 million in projected savings from
investigations resulting in the suspension or termination of benefits. e following table represents
the efforts of OI personnel nationwide to recover SSA funds paid in fraudulent benefits or through
other illegal actions.


                                      SSA Funds Reported

                                10/01/04 – 3/31/05    4/01/05 – 9/30/05          FY 2005 Total


   Recoveries                          $15,442,687             $15,466,090             $30,908,777


   Fines                                  $214,131                $333,800                $547,931


   Settlements/Judgments                  $557,705                $487,967              $1,045,672


   Restitution                         $12,055,687             $10,237,070             $22,292,757


   Estimated Savings                   $88,950,961            $105,540,502            $194,491,463


   Total                              $117,221,171            $132,065,429            $249,286,600



                                                                                                      Value   • 27
                 Semiannual Report to Congress                                        April 1, 2005 – September 30, 2005




         CDI Program Results
         e following table highlights the successes of the CDI program for this reporting period.


                       Cooperative Disability Investigations Program Results
                                          April 1 – September 30, 2005

                                     Allegations       Confirmed                             Non-SSA
             State                                                    SSA Savings1
                                      Received        Fraud Cases                            Savings2
             Arizona                             46            39             $2,136,523        $754,206
             California                       97               72             $3,755,426     $3,182,385
             Colorado                         73               55             $3,509,622     $2,386,428
             Florida                          79               62             $4,053,472     $3,102,924
             Georgia                          80              103             $5,884,167     $1,816,644
             Illinois                         54               45             $2,455,727     $1,123,515
             Louisiana                        57               32             $1,768,660       $696,070
             Massachusetts                    61               18             $1,099,702       $502,880
             Missouri                        123               58             $3,455,630     $1,235,450
             New Jersey                      102               67             $4,180,224     $3,523,935
             New York                        104               68             $4,499,974     $4,777,530
             Ohio                            218              128             $8,353,510     $4,436,070
             Oregon                          121              102             $6,203,948     $4,089,875
             Tennessee                        74               27             $1,853,962       $863,952
             Texas3                          159              105             $5,848,536     $2,641,248
             Virginia                         77               39             $2,344,620     $1,249,911
             Washington                      113              110             $6,497,445     $5,420,970
             Total                         1,638            1,130            $67,967,648    $41,804,011
             October 1, 2004
                                        1,560            929          $55,540,184        $36,032,112
             –March 31, 2005
             FY 2005
                                        3,198         2,059          $123,507,832        $77,836,123
             Grand Total
             1
                SSA program savings are reported at a flat rate of $66,500 for initial claims that are
                denied as a result of CDIs. When a CDI supports the cessation of an in-pay case,
                SSA program savings are calculated by multiplying the actual monthly benefit times
                60 months.
             2
                  Non-SSA savings are also projected over 60 months whenever another governmental
                  program withholds benefits as a result of CDIs, using estimated or actual benefit
                  amounts documented by the responsible agency.
             3
                  Texas has 2 units, 1 in Dallas and the other in Houston.




28 • Value
 April 1, 2005 – September 30, 2005                             SSA Office of the Inspector General




e following case summaries are indicative of the nearly 6,000 investigations we have closed
during this reporting period. e cases we have highlighted illustrate the many instances where
our investigative efforts have afforded a significant return on the investment of our staff and
resources.

Disability Program Fraud: Author of Books About Benefiting from
Government Loopholes Convicted of Fraud
Acting on an anonymous tip to the SSA OIG Fraud Hotline, agents from our Indianapolis
Office began an investigation of a woman who had received disability benefits since 1985 for
rheumatoid arthritis. Our investigation revealed that the beneficiary had been working as a
university professor and published author under her husband’s SSN and had failed to report
her work to SSA. Using various pseudonyms, she wrote several books about ways to benefit
financially from government loopholes.
In July 2003, SSA initiated a continuing disability review, and the woman denied she had
been employed or had earned any income while receiving SSA benefits. In November 2003, a
search warrant was executed at the woman’s residence, and forensic analysis of her computer
later confirmed her career as a professor. Additionally, items seized revealed that she had been
paid by major book and magazine publishers under her husband’s SSN.
SSA determined that the income earned under her husband’s SSN made her ineligible to
receive SSA benefits from January 1999 to February 2004. In July 2005, the beneficiary pled
guilty and was sentenced to 545 days of home detention, 6 years’ probation, and 40 hours of
community service, and was ordered to pay $77,180 in restitution to SSA.

Disability Program Fraud: Fishing Guide Fraudulently Collects $71,567
in Disability Benefits Over 10 Years
An OASDI beneficiary defrauded SSA of $71,567 by failing to disclose that he was working
full-time as a prominent self-employed fishing guide while receiving benefits. e man first
applied for disability benefits in November 1994, but an investigation by our Portland, Oregon
Office revealed he had been a fishing guide since 1993.
During the course of the investigation, OI agents conducted an undercover operation that
involved participating in a 7-hour fishing trip led by the subject. During the operation,
agents observed him operating a non-motorized drift boat with no visible impairment. e
operation was conducted jointly with the Washington Department of Fish and Wildlife, which
subsequently seized the subject’s boat and fishing equipment and cited him for guiding without
a license.
e man was convicted in June 2005 of Social Security Fraud and sentenced to 5 months
in prison, followed by 5 months in a community corrections center and 3 years’ supervised
probation. He was also ordered to pay full restitution to SSA.




                                                                                                      Value   • 29
              Semiannual Report to Congress                                   April 1, 2005 – September 30, 2005




             SSA Employee Fraud: Claims Representative Generates Fraudulent
             Treasury Checks Totaling $165,000
             An investigation by our Milwaukee Office was initiated on referral from an SSA District Manager,
             who suspected fraud after reviewing the SSA records of two different SSI recipients regarding
             non-receipt of their benefit checks. e investigation revealed than an SSA Claims Representative
             diverted Government funds by generating and mailing fraudulent U. S. Treasury checks, in
             order to finance his drug habit. He altered electronic recipient files in order to create and mail
             bogus checks, which were then intercepted and cashed by the employee and his associates. Five
             other individuals were knowingly involved in the scheme, which caused a loss of approximately
             $165,000.
             e SSA employee pled guilty to a one-count indictment in April 2005 and was sentenced
             in August 2005 to 2 years in prison, 3 years of supervised release, and restitution to SSA of
             $165,000. Four other participants were also sentenced on charges of Mail Fraud, one of whom
             was on Federal supervised release for drug trafficking. is individual’s supervised release was
             revoked and he was sentenced to an additional 6 months in prison. An additional participant
             was charged with eft of Government Property and has yet to be sentenced.
             Representative Payee Fraud: Man Receives Benefits for 16 Years as Payee
             for Two Fictitious Individuals
             Our Boston Office opened an investigation after we received information from a local police
             department regarding an individual who possessed multiple genuine Social Security cards. Our
             agents found that the man had fraudulently received $140,644 in OASDI and SSI disability
             benefits over 16 years, after applying for and receiving benefits for himself as well as for two
             fictitious individuals as their supposed representative payee. He was arrested on drug charges
             in March 2005 by local police, and the Social Security cards were discovered during a search
             warrant.
             Upon being interviewed by OI agents, the man confessed that he had provided counterfeit
             birth certificates and false statements to SSA in order to obtain SSA disability benefits for the
             two fictitious individuals. He was arrested by OI agents in February 2005 and pled guilty to
             one count of eft of Government Property. He faced sentencing of up to 5 years in prison,
             but, due to an extreme medical condition, his sentence was limited to 2 years’ probation in
             community confinement at an inpatient facility. He also was ordered to pay restitution to SSA
             of $140,644.

             Deceased Beneficiary Investigation: Woman Collects Deceased Mother’s
             Benefits for 21 Years
             An investigation by our Oklahoma City Office revealed that a daughter had been receiving and
             negotiating her mother’s OASDI benefits from the time of her mother’s death in December 1981
             until September 2003, for a total of $89,015. After her death, the woman’s monthly Social
             Security benefits continued to be delivered to her home address. Her daughter subsequently
             reported a change of mailing address to SSA, first to her home address, and then to a post
             office box. From 1982 through 1994, these checks were cashed at a grocery store in Ardmore,
             Oklahoma. e checks contained an endorsement of the name of the deceased beneficiary and


30 • Value
 April 1, 2005 – September 30, 2005                               SSA Office of the Inspector General




a second endorsement of the beneficiary’s daughter. From 1994 through 2003, the checks were
negotiated at an Oklahoma bank.
e daughter pled guilty and, in May 2005, was sentenced to 5 months’ incarceration, 5 months’
home confinement, 1 year’s probation, 56 hours of community service, restitution of $89,015
to SSA, and participation in inmate financial responsibility courses while in prison.

SSN Fraud: Brothers Convicted of Stealing $240,488 rough Identity
eft Scheme
Working with the U.S. Postal Inspection Service (USPIS), our Dallas Office undertook a
joint investigation of two brothers who were revealed to be involved in a conspiracy to commit
identity theft by obtaining SSNs and other personal identifiers of both living and deceased
victims. ey and other individuals whom they recruited used these personal identifiers and
counterfeit identification documents to purchase luxury vehicles and obtain loans, and then
defaulted on the loans and credit card accounts.
e brothers were indicted on counts of Conspiracy to Commit Bank Fraud, SSN Fraud,
Fraudulent Use of Identification Documents and Bank Fraud. Each was sentenced in June 2005
to 60 months’ incarceration and 97 months’ incarceration, to be served concurrently, as well as
3 years’ supervised release. In addition, each brother was ordered to pay $240,488 in restitution.
Nine other individuals were indicted in relation to this case, pled guilty to Conspiracy to
Commit Bank Fraud, and were sentenced to varying terms of incarceration, supervised release,
and restitution.

Double Check Negotiation: Fraud of $12,452 Results in 15-Month
Prison Term
e St. Louis, Missouri SSA FO referred a case in which a woman had received and negotiated
both her original and replacement SSA benefit checks on multiple occasions from April 1998
to February 2004, for a total fraud loss of $12,452. When OI special agents interviewed the
beneficiary at her residence regarding this allegation, she admitted to knowingly requesting
a replacement check and then cashing both checks. She also provided a sworn, written
statement.
e beneficiary was indicted by the Eastern District of Missouri Grand Jury in September 2004
and was arrested by OI agents the following month. She pled guilty and was sentenced
in April 2005 to 15 months’ imprisonment and 3 years’ probation. In addition, she was
ordered to pay full restitution. e beneficiary’s benefits have been suspended a result of her
incarceration.

Deceased Beneficiary Investigation: Son Cashes $134,000 of Deceased
Mother’s Benefit Checks
Our OI Office in San Juan, Puerto Rico initiated this investigation as part of the OIG National
Medicare Non-Usage Project (an anti-fraud initiative designed to detect unreported deaths
through a review of aged individuals with long periods of non-usage of Medicare). We found
that a man had concealed his mother’s death for over 20 years to continue receiving and cashing


                                                                                                        Value   • 31
             Semiannual Report to Congress                                   April 1, 2005 – September 30, 2005




             her OASDI benefit checks. He pled guilty in December 2004 and was sentenced in March 2005
             to 2 years’ probation and restitution to SSA of $134,000.

             Double Check Negotiation: Los Angeles Woman Repeatedly Cashes
             Original and Replacement Benefit Checks
             is investigation was initiated in November 2003 as a result of a national Double Check
             Negotiation project investigating individuals who repeatedly allege non-receipt of SSI benefit
             checks and proceed to negotiate both the original check and a replacement check issued by
             SSA. A Los Angeles beneficiary had defrauded SSA of $9,605 by engaging in this practice of
             repeatedly cashing both her original benefit check and the replacement check. SSA had recorded
             the overpayments and had been administratively recovering a portion of the beneficiary’s
             monthly SSI benefit prior to our investigation. She was indicted in July 2004 and arrested by
             agents of our Los Angeles Office, in coordination with the United States Secret Service. In
             May 2005, the beneficiary was sentenced to serve 1 day in custody as well as to pay $9,605 in
             restitution to SSA.

             SSN Fraud: Women Suspected of Using Elderly Individuals’ SSNs to
             Commit Credit Card Fraud
             Agents from our Memphis Office investigated three women, one of whom was an SSI beneficiary,
             who were suspected of obtaining SSNs and other identifying information from elderly
             individuals and using this information to obtain money and property by opening fraudulent
             credit card accounts. is case was based on a referral from the USPIS. Our investigation
             revealed that one of the individuals had been investigated by our office previously for similar
             activity, and had served 12 months in prison as a result of her conviction. is woman remains
             in the custody of the U.S. Marshals Service on new charges related to our investigation. A trial
             date has not yet been set.
             One of her co-conspirators pled guilty and was sentenced in July 2005 to 12 months and
             1 day in prison and 2 years’ supervised release, and was ordered to pay restitution of $46,293
             to Discover Card and Household Bank Card. e other also pled guilty and was sentenced in
             July 2005 to 3 months’ incarceration and 2 years’ supervised release, and was ordered to pay
             restitution of $6,636 to Discover Card.

             Disability Program Fraud: Deputy Sheriff Collects Disability Benefits
             While Working Under False SSN
             e OI Office in St. Louis was asked by the Missouri State Highway Patrol (MHP) to open
             a joint investigation of a Deputy Sheriff with the Mississippi County Sheriff ’s Department.
             MHP discovered that this individual had been working under an SSN that was not assigned
             to him. e investigation revealed that he was not only working as a Deputy Sheriff, but also
             was collecting OASDI disability benefits under his true SSN. During an interview, the man
             confessed to using another person’s SSN and failing to report his work to SSA. He pled guilty
             to 7 counts and was sentenced in July 2005 to 3 years’ probation and was ordered to pay an
             assessment of $700 and restitution to SSA of $66,120.




32 • Value
April 1, 2005 – September 30, 2005                                SSA Office of the Inspector General




Value Attained rough Civil Monetary Penalties
Our efforts to administer that portion of the CMP program which deals with violators of
Section 1129 of the Social Security Act also maximize the resources available to us and contributes to
the return on that investment. Section 1129 of the Act allows for the imposition of a CMP against
those who make false statements or representations in connection with obtaining or retaining
benefits or payments under Titles II, VIII, or XVI of the Act. e Social Security Protection Act
of 2004, (Public Law (P.L.) 108-203), extended CMP authority to penalizing representative
payees for wrongful conversion of payments made under the Social Security programs as well
as individuals for the knowing withholding of a material fact, when the individual should have
come forward but did not.
After consultation with DOJ, OCCIG is authorized to impose penalties of up to $5,000 against
individuals for each false statement, representation, conversion or omission. A person may also
be subject to an assessment, in lieu of damages, of up to twice the amount of any overpayment.
e following table and cases highlight the value achieved through our Section 1129
accomplishments for this reporting period.

                False Statements Under Section 1129 - Results
                                             10/01/04 –        4/01/05 –
                                                                                    Total
                                              3/31/05           9/30/05
 Cases Received                                   207               316               523

 CMP Cases Initiated                               77               79                156

 CMP Cases Closed                                 135               238               373

 CMP Penalties and Assessments                 $288,285          $435,075         $723, 360

 Number of Hearings Requested                      2                11                13



Company President Collaborates With Employee to Deceive SSA
From 1993 – 1999, an Alabama man conspired with his employer at an excavating business to
conceal wages that he earned in order to continue receiving Social Security retirement benefits.
e employee/employer scheme involved fictitious payroll checks, whereby the company’s owner
agreed to issue a check to the employee’s sister-in-law for the portion of the employee’s wages that
exceeded the income amount allowable under Social Security retirement benefits. e sister-in-
law was not an employee of the excavating company at the time the checks were issued to her.




                                                                                                        Value   • 33
              Semiannual Report to Congress                                   April 1, 2005 – September 30, 2005



             e fraud committed by the employee and his employer resulted in an overpayment of benefits
             in the amount of $12,326. SSA presently is recouping this overpayment. We imposed a $10,000
             CMP against the employee (which he has paid) as well as a $10,000 CMP against the employer,
             in his individual capacity, and another $10,000 penalty against the employer, in his capacity as
             the owner of the company, for a total penalty amount of $30,000.

             Millionaire Collects Almost $50,000 in SSI
             A woman was collecting SSI benefits for her son as his representative payee. In a series of
                     
              , she stated that her total household income did not exceed $177 per month,
             and that her son received no income. is individual later stated that she did not receive or
             expect to receive any kind of income. However, an investigation revealed that the son had
             a $1.25 million trust fund, from which he received $6,057 per month, and from which the
             woman received $2,500 per month as trustee of the fund. e woman was sentenced to 360
             days in Sacramento County Jail, subject to 5 years’ probation, and ordered to pay restitution
             of $85,097. She repaid the total overpayment amount of $85,097 ($49,538 to SSA and
             $35,559 to Sacramento County for benefits she and her family received from the Department
             of Human Assistance), and entered into a settlement agreement with OCCIG to pay a penalty
             of $12,500.

             Woman Uses False Name and SSN to Collect Benefits
             A New York woman wrongfully collected Widow’s Insurance Benefits (WIB) under one identity
             and SSN while working full-time under a false identity and fraudulent SSN. Upon retirement,
             she applied for Retirement Insurance Benefits (RIB) using her false identity and fraudulent
             SSN. At that time, she falsely stated that she had never been married and had never applied for
             benefits. is individual made these false statements to facilitate the continued improper receipt
             of WIB while simultaneously collecting RIB under the other identity. She was uncooperative
             with the CMP action and was unwilling to provide financial disclosure. Additionally, she was
             verbally abusive to an agent who had to personally serve the penalty letter when this individual
             refused to accept delivery by certified mail. Ultimately, the woman appealed this matter to the
             Departmental Appeals Board (DAB). OCCIG negotiated a settlement with her attorney prior
             to the DAB hearing for a $5,000 penalty and $32,338 in restitution to SSA.




34 • Value
April 1, 2005 – September 30, 2005                             SSA Office of the Inspector General




People
OIG constantly strives to enhance the work experience of our people, who are the foundation
of the OIG organization and are crucial to our success. Our management initiatives are
designed to foster a skilled, motivated, and diverse workforce in a positive and rewarding
work environment. We believe that commitment to our people returns results in terms of the
efficiency and effectiveness of our work. e following initiatives support that commitment.
Budget
For FY 2005, our annual appropriation was $90.4 million. Our end-of-year staffing level of
613 accounted for 79 percent of our spending. We expended the remaining 21 percent for
“other objects” including travel, training, communications, reimbursable work authorizations
and general procurements, as well as to provide for basic infrastructure needs such as rent and
interagency service agreements.
As part of our recurring fiscal stewardship responsibilities, we conducted an annual evaluation
of OIG work processes to determine if any positions could be deemed commercial in nature
and subject to competitive sourcing. To date, OIG has not converted any Government positions,
though we continue to make extensive use of private sector services through the contracting
process.
Human Capital Planning and Management
OIG ended FY 2005 with staffing of 613. To achieve this success, we used a strategy that
carefully tracked employment gains and losses by individual pay period. Using this data, along
with historical trends, we worked to predict where future hiring would likely be required and
took steps to begin the recruitment process. is enabled us to have qualified candidates in
the pipeline to reduce the amount of time a position remained vacant. Our aggressive staffing
and recruitment ensured that OIG components had the necessary human resources to fulfill
their respective missions.
We believe that providing a quality work experience that includes excellent training and upward
mobility is crucial for long-term retention of our employees. In addition to providing mandatory
job-specific training, we encourage all employees to take a minimum of 40 hours of training
annually. Given budget limitations, this goal is not always easy to meet, but we have explored
many low or no-cost training opportunities to assist employees in meeting this goal. ese
options include computer-based training, blanket training agreements, and developmental
assignments among others.
During this reporting period, the President’s Council for Integrity and Efficiency developed
a pilot training program, in which we participated, using the private firm SkillSoft’s online
interactive training facility to make thousands of courses and reference materials available
to students anywhere at any time. Recommended courses were prescribed for each major
job category of OIG employee including auditors, investigators, attorneys, support staff, and
managers. In the short time that this program was available, 46 percent of our employees used
the facility, making us one of the top five users in the Federal Inspector General community.



                                                                                                 People   •   35
                Semiannual Report to Congress                                   April 1, 2005 – September 30, 2005




                Information Technology (IT)
                OIG provides and maintains most of its own IT systems. We recognize the importance of
                state-of-the-art tools and place a high priority on ensuring that our employees have the latest
                proven technologies to perform their work.
                During this semiannual reporting period, we developed and installed custom Windows XP
                workstation and laptop operating system images on all OIG computers. Server operating
                systems were also upgraded. Our hardware specialists enhanced the Virtual Private Network
                to facilitate more reliable and secure remote connectivity. We are working to reduce the
                number of servers in our enterprise by replacing low-end servers with a few larger capacity
                servers that will also provide data storage to multiple locations. Depending upon bandwidth
                and other factors, our target is to cut the number of servers needed in our enterprise by at
                least half over the next two years.
                In addition to supporting an IT infrastructure for over 600 employees in a variety of locations,
                our IT staff also provided software services in a number of areas. During this reporting period,
                we updated our online Employee Resource Center (ERC), a virtual facility that consolidates
                reference materials frequently used by OIG staff. e ERC includes contact information,
                administrative policies and procedures, forms, career development information, and a host of
                other employee-related resources. e newly enhanced facility includes improved organization
                of topics, customized search capabilities and site maps for ease of use.
                Software developers also implemented the first phases of a new administrative database and
                system to improve the entry, storage, integration, and retrieval of crucial budget, personnel,
                and logistical information. e early components of the new system include a streamlined
                human resource data base and reporting system, training data for OIG employees, and easily
                accessible budget and accounting reports.
                Finally, OIG software specialists continued to make enhancements to the National
                Investigative Case Management System (NICMS), the new software application that
                was implemented last December. NICMS is a robust system that provides enhanced case
                management functionality, improved query and reporting capabilities, and workflow based
                on business process management rules. NICMS uses intuitive screens and menus that
                eliminate redundant data entry. e system provides immediate notification to users when
                work requires their attention, thus eliminating potential delays in work processes. e
                application was designed using a commercial off-the-shelf business process management
                tool and uses the Agency’s standard server-based database product, Oracle, for back-end
                data storage and retrieval.




36 •   People
April 1, 2005 – September 30, 2005                   SSA Office of the Inspector General




                        A S T Y
                 e diligent work, outstanding efforts, and many
                 contributions of our entire OIG staff make the
                 numerous accomplishments highlighted in this
                          Semiannual Report possible.

                  We would like to thank them for their dedicated
                            spirit and many successes.




                                                                                       People   •   37
     Semiannual Report to Congress   April 1, 2005 – September 30, 2005




38
April 1, 2005 – September 30, 2005          SSA Office of the Inspector General




                                     Appendices




                                                                          Appendices   •   39
              Semiannual Report to Congress                                       April 1, 2005 – September 30, 2005




           Reporting Requirements
           is report meets the requirements of the Inspector General Act of 1978, as amended, and
           includes information mandated by Congress.



                  Section                              Requirement                                 Page(s)

               Section 4(a)(2)      Review of legislation and regulations                            N/A


               Section 5(a)(1)      Significant problems, abuses, and deficiencies                   8-34

               Section 5(a)(2)      Recommendations with respect to significant problems,
                                                                                                     8-34
                                    abuses, and deficiencies

               Section 5(a)(3)      Recommendations described in previous Semiannual             Appendices F
                                    Reports on which corrective actions are incomplete              &G

               Section 5(a)(4)      Matters referred to prospective authorities and the
                                                                                                     16-34
                                    prosecutions and convictions that have resulted

              Section 5(a)(5) &
                                    Summary of instances where information was refused               N/A
               Section 6(b)(2)


               Section 5(a)(6)      List of audits                                                Appendix B


               Section 5(a)(7)      Summary of particularly significant reports                      8-27

                                    Table showing the total number of audit reports and
               Section 5(a)(8)                                                                    Appendix A
                                    total dollar value of questioned costs

                                    Table showing the total number of audit reports and
               Section 5(a)(9)                                                                    Appendix A
                                    total dollar value of funds put to better use

                                    Audit recommendations more than 6 months old for
               Section 5(a)(10)                                                                   Appendix A
                                    which no management decision has been made

                                    Significant management decisions that were revised
               Section 5(a)(11)                                                                      N/A
                                    during the reporting period

                                    Significant management decisions with which the
               Section 5(a)(12)                                                                  Appendix D
                                    Inspector General disagrees




40 •   Reporting Requirements
 April 1, 2005 – September 30, 2005                                  SSA Office of the Inspector General




Appendix A

Resolving Audit Recommendations
e following chart summarizes SSA’s responses to our recommendations for the recovery or redirection
of questioned and unsupported costs. Questioned costs are those costs that are challenged because of a
violation of law, regulation, etc. Unsupported costs are those costs that are questioned because they are
not justified by adequate documentation. is information is provided in accordance with P.L. 96- 304
(the Supplemental Appropriations and Recession Act of 1980) and the Inspector General Act of 1978, as
amended.


                    Reports with Questioned Costs for the Reporting Period
                              April 1, 2005 through September 30, 2005
                                                        Number Value Questioned Value Unsupported
  A. For which no management decision had been made
                                                            9              $14,044,704                $2,736,000
     by the commencement of the reporting period.

  B. Which were issued during the reporting period.        11a            $183,027,720                $1,285,313

                    Subtotal (A + B)                       20             $197,072,424                $4,021,313

     Less:

  C. For which a management decision was made
                                                           15             $101,713,480                     $618,653
     during the reporting period.

     i. Dollar value of disallowed costs.                  10b            $101,207,103                     $543,203

     ii. Dollar value of costs not disallowed.              5c                $506,377                      $75,450

  D. For which no management decision had been made
                                                            7              $95,358,944                $3,402,660
     by the end of the reporting period.


a. See Reports with Questioned Costs in Appendix B of this report.
b. A management decision was made on only a portion of the dollars contained in the report, Administrative Costs
   Claimed by the Pennsylvania Bureau of Disability Determination (A-15-04-14080, 8/31/05).
c. Indirect Costs Claimed by the Arizona Disability Determination Services (A-09-04-14010, 3/28/05) contained
   dollars that were disallowed and dollars not disallowed.




                                                                                                   Appendices         •   41
                Semiannual Report to Congress                                     April 1, 2005 – September 30, 2005




   e following chart summarizes SSA’s response to our recommendations that funds be put to better use
   through cost avoidances, budget savings, etc.


                   Reports with Recommendations that Funds Be Put to Better Use
                    Reporting Period April 1, 2005 through September 30, 2005
                                                                                 Number         Dollar Value
     A. For which no management decision had been made by the
                                                                                    4                  $4,720,157
        commencement of the reporting period.

     B. Which were issued during the reporting period.                             7a                $95,660,771

                Subtotal (A + B)                                                   11               $100,380,928

        Less:

     C. For which a management decision was made during the reporting period.

         i. Dollar value of recommendations that were agreed to by management.

            (a) Based on proposed management action.                                6                $94,888,133

            (b) Based on proposed legislative action.                               0                           $0

         ii. Dollar value of costs not agreed to by management.                     2                  $3,123,472

                Subtotal (i + ii)                                                   8                $98,011,605

     D. For which no management decision had been made by the end of the
                                                                                    3                  $2,369,323
        reporting period.


   a. See Reports with Funds Put to Better Use in Appendix B of this report.




42 • Appendices
April 1, 2005 – September 30, 2005                                         SSA Office of the Inspector General



Appendix B

Reports Issued
                               Reports with Non-Monetary Findings
                              October 1, 2004 through September 30, 2005
 Audit Number                                            Report                                          Issue Date
                      e Social Security Administration’s Procedures for Addressing Employee-
    A-01-04-14091                                                                                          10/7/04
                      Related Allegations in Region I
                      e Social Security Administration’s Compliance with the Employee Retirement
    A-14-04-24099                                                                                         10/14/04
                      Income Security Act
                      Management of Allegations by the Social Security Administration’s Office of
    A-13-04-14047                                                                                         10/15/04
                      Systems

    A-02-04-14072     Performance Indicator Audit: Processing Time                                        10/25/04

                      Employers with the Most Suspended Wage Items in the 5-Year Period 1997
    A-03-03-13048                                                                                         10/26/04
                      through 2001
                      Inspector General Statement on the Social Security Administration’s Major
    A-02-05-15092                                                                                         11/10/04
                      Management Challenges
                      Performance Indicator Audit: Disability Determination Services Net Accuracy
    A-15-04-14074                                                                                         11/10/04
                      Rate--Allowances and Denials Combined

    A-15-04-34084     Oversight of the FY 2004 Financial Statement Audit                                  11/10/04


    A-44-05-25111     Top Issues Facing Social Security Administration Management— FY 2005                11/10/04


    A-15-04-14073     Performance Indicator Audit: Productivity                                           11/17/04

                      Management Advisory Report: Proper Disposal of Sensitive Documents at the
    A-15-04-24103                                                                                         11/17/04
                      Social Security Administration’s Headquarters (Limited Distribution)
                      Disclosure Statement Review of Maximus, Inc. Home Office and Health
    A-15-04-34097                                                                                         11/23/04
                      Operations Divisions
                      Management Advisory Report: Single Audit of the State of Colorado for the FY
    A-77-05-00004                                                                                          12/7/04
                      Ended June 30, 2003
                      Individual Representative Payees for the Social Security Administration in the
    A-01-05-15048                                                                                          12/8/04
                      Boston Region

    A-08-05-15034     Universities’ Use of Social Security Numbers as Student Identifiers in Region IV     12/9/04


    A-02-03-13079     Social Security Administration’s Ticket to Work Program                             12/20/04

                      Management Advisory Report: Single Audit of the State of Idaho for the FY
    A-77-05-00005                                                                                         12/28/04
                      Ended June 30, 2003

    A-15-05-25096     Performance Indicator Audit: General Observations                                    1/6/05

                      Management Advisory Report: Single Audit of the State of New York for the FY
    A-77-05-00006                                                                                          1/19/05
                      Ended March 31, 2003




                                                                                                          Appendices   •   43
              Semiannual Report to Congress                                                  April 1, 2005 – September 30, 2005




                                Reports with Non-Monetary Findings
                               October 1, 2004 through September 30, 2005
  Audit Number                                          Report                                             Issue Date

    A-01-05-15070   Access to Secured Areas in Region I Hearing Offices                                      1/31/05


    A-07-05-15074   Universities’ Use of Social Security Numbers as Student Identifiers in Region VII        1/31/05

                    Management Advisory Report: Single Audit of the State of Wisconsin for the FY
    A-77-05-00007                                                                                             2/9/05
                    Ended June 30, 2003
                    Management Advisory Report: Single Audit of the State of Illinois for the FY
    A-77-05-00008                                                                                             2/9/05
                    Ended June 30, 2003
                    Individual Representative Payees for the Social Security Administration in the
    A-06-05-15053                                                                                            2/11/05
                    Dallas Region
                    Management Advisory Report: Single Audit of the State of Oklahoma for the FY
    A-77-05-00009                                                                                            2/22/05
                    Ended June 30, 2003

    A-12-05-35003   Access to Secured Areas in Region III Hearing Offices                                    2/25/05

                    Congressional Response Report: Follow-up of Federal Agencies’ Controls over the
    A-08-05-25101                                                                                            2/28/05
                    Access, Disclosure, and Use of Social Security Numbers by External Entities

    A-06-05-15076   Access to Secured Areas in Region VI Hearing Offices                                      3/8/05


    A-08-05-15033   Universities’ Use of Social Security Numbers as Student Identifiers in Region X           3/8/05

                    Management Advisory Report: Single Audit of the State of Minnesota for the FY
    A-77-05-00010                                                                                             3/8/05
                    Ended June 30, 2003

    A-04-05-15039   Universities’ Use of Social Security Numbers as Student Identifiers in Region VIII       3/21/05

                    Individual Representative Payees for the Social Security Administration in the
    A-07-05-15055                                                                                            3/21/05
                    Denver Region

    A-04-05-15066   Access to Secured Areas in Region IV Hearing Offices                                     3/28/05


    A-03-04-14041   Department of Defense Wage Items in the Earnings Suspense File                           3/29/05

                    e Social Security Administration’s Procedures for Addressing Employee-Related
    A-07-05-15014                                                                                            3/29/05
                    Allegations in Region VII
                    e Social Security Administration’s Regional Office Procedures for Addressing
    A-09-04-14089                                                                                            3/30/05
                    Employee-Related Allegations in Region X

    A-12-04-14098   e Effects of Staffing on Hearing Office Performance                                     3/30/05


    A-02-05-25089   Access to Secured Areas in Region II Hearing Offices                                     4/11/05

                    Social Security Administration’s Controls for Concurrently Entitled Beneficiaries
    A-05-04-13058                                                                                            4/11/05
                    with Representative Payees



44 • Appendices
April 1, 2005 – September 30, 2005                                           SSA Office of the Inspector General




                               Reports with Non-Monetary Findings
                              October 1, 2004 through September 30, 2005
Audit Number                                            Report                                           Issue Date
                   Individual Representative Payees for the Social Security Administration in the
 A-07-05-15054                                                                                             4/11/05
                   Kansas City Region

 A-07-05-15075     Access to Secured Areas in Region VII Hearing Offices                                   4/11/05

                   Individual Representative Payees for the Social Security Administration in the
 A-05-05-15052                                                                                             4/22/05
                   Chicago Region
                   Individual Representative Payees for the Social Security Administration in the
 A-14-05-15050                                                                                             4/22/05
                   Philadelphia Region

 A-13-05-15083     Universities’ Use of Social Security Numbers as Student Identifiers in Region III       4/26/05

                   Social Security Number Misuse in the Service, Restaurant, and Agriculture
 A-08-05-25023                                                                                             4/29/05
                   Industries
                   Individual Representative Payees for the Social Security Administration in the
 A-13-05-15051                                                                                             5/20/05
                   Atlanta Region

 A-09-05-15068     Access to Secured Areas in Region X Hearing Offices                                     5/27/05


 A-05-05-15081     Universities’ Use of Social Security Numbers as Student Identifiers in Region V          6/7/05


 A-07-04-14087     Administrative Costs Claimed by the Iowa Disability Determination Services               6/7/05


 A-09-05-15069     Access to Secured Areas in Region IX Hearing Offices                                     6/7/05


 A-12-05-15065     Access to Secured Areas in Region VIII Hearing Offices                                   6/7/05


 A-14-04-24077     e Social Security Administration’s Use of Deportation Data                             6/10/05

                   University of Illinois at Urbana-Champaign, College of Applied Life Studies,
 A-15-05-25122                                                                                             6/27/05
                   Disability Research Institute
                   Nation-wide Review of Individual Representative Payees for the Social Security
 A-13-05-25006                                                                                             7/26/05
                   Administration

 A-15-05-15043     Analysis of Undeliverable Social Security Number Cards (Limited Distribution)           7/26/05


 A-02-05-25104     Universities’ Use of Social Security Numbers as Student Identifiers in Region II        7/27/05

                   Congressional Response Report: Review of Milwaukee Office of Hearings and
 A-13-05-25140                                                                                              8/2/05
                   Appeals
                   State Disability Determination Services’ Removal of Sensitive Information from
 A-14-05-15063                                                                                              8/4/05
                   Excessed Computers

 A-03-04-14037     Reported Earnings Prior to the Issuance of a Social Security Number                      8/5/05




                                                                                                           Appendices   •   45
             Semiannual Report to Congress                                                   April 1, 2005 – September 30, 2005




                                   Reports with Non-Monetary Findings
                                  October 1, 2004 through September 30, 2005
    Audit Number                                               Report                                            Issue Date

      A-05-05-15082   Access to Secured Areas in Region V Hearing Offices                                           8/5/05


      A-06-05-15024   e Social Security Administration’s Match of Disability Insurance Records with Texas          8/5/05
                      Workers’ Compensation Payment Data

      A-01-05-15071   Universities’ Use of Social Security Numbers as Student Identifiers in Region I               8/12/05


      A-02-05-15119   Performance Indicator Audit: Job Enrichment Opportunities                                     8/12/05


      A-02-05-45097   Representative Payee Audit of the Rescue Mission of Utica (Limited Distribution)              8/12/05


      A-06-05-15100   Universities’ Use of Social Security Numbers as Student Identifiers in Region VI              8/19/05

                      Follow-up: e Social Security Administration Can Recover Millions in Medicare
      A-08-05-15112   Premiums Related to Retirement or Disability Payments Made After Death                        8/24/05


      A-12-05-15085   Office of Hearings and Appeals Megasite Information and Bar-Coding Systems                    8/25/05


      A-08-05-15073   Impact of Nonimmigrants Who Continue Working After eir Immigration Status Expires            9/9/05

                      e Social Security Administration’s Compliance with Presidential Executive Order 13224
      A-08-05-15093   Prohibiting Transactions with Persons Who Commit, reaten to Commit, or Support               9/9/05
                      Terrorism

      A-08-05-25132   Follow-up of Pending Workers’ Compensation: e Social Security Administration Can             9/9/05
                      Prevent Millions in Title II Disability Overpayments


      A-14-05-15060   Fiscal Year 2005 Evaluation of the Social Security Administration’s Compliance with the       9/16/05
                      Federal Information Security Management Act

      A-02-03-13083   Office of Hearings and Appeals Pre-Effectuation Review Process                                9/19/05


      A-04-05-15098   Disability Determination Services’ Use of Social Security Numbers on ird-Party               9/19/05
                      Correspondence

      A-03-05-25127   Unauthorized Work Social Security Numbers at the Department of Defense                        9/20/05


      A-14-05-15061   Follow-up Review of the Social Security Administration’s Controls to Prevent and Detect       9/20/05
                      Direct Deposit Fraud (Limited Distribution)

      A-03-05-25010   Tax Information Related to the Social Security Administration’s Contractors                   9/23/05


      A-03-05-25007   Usefulness of Decentralized Correspondence in Focusing Employer-Assistance Activities         9/30/05



46 • Appendices
April 1, 2005 – September 30, 2005                                        SSA Office of the Inspector General




                                     Reports with Questioned Costs
                               October 1, 2004 through September 30, 2005
Audit Number Issue Date                                       Report                                Dollar Amount
                                  Administrative Costs Claimed by the South Carolina Disability
 A-04-04-14053      10/7/04                                                                                        $8,600
                                  Determination Services
                                  Social Security Administration’s Controls Over the Title XVI
 A-06-03-13077      10/25/04                                                                               $64,818,500
                                  Overpayment Waiver Process
                                  Seattle Mental Health Institute - An Organizational
 A-09-04-14015      10/26/04                                                                                    $3,063,296
                                  Representative Payee for the Social Security Administration
                                  Management Advisory Report: Single Audit of the State of
 A-77-05-00001      11/16/04                                                                                       $4,744
                                  Arizona for the FY Ended June 30, 2003
                                  Management Advisory Report: Single Audit of the State of Maine
 A-77-05-00002      11/17/04                                                                                     $633,282
                                  for the FY Ended June 30, 2003
                                  Management Advisory Report: Single Audit of the State of South
 A-77-05-00003      12/2/04                                                                                      $237,151
                                  Carolina for the FY Ended June 30, 2003

 A-09-04-14013      1/31/05       School Attendance by Student Beneficiaries Over Age 18                  $109,455,000

                                  Westat Contract Close Out on Contract Number 0600- 99-36200
 A-15-05-20019      1/31/05                                                                                       $35,135
                                  (Limited Distribution)
                                  Administrative Costs Claimed by the South Dakota Disability
 A-15-03-13060      2/25/05                                                                                      $233,963
                                  Determination Services
                                  Individual Representative Payees for the Social Security
 A-09-05-15057       3/8/05                                                                                          $340
                                  Administration in the Seattle Region

 A-01-05-25015      3/28/05       Individuals Receiving Multiple Auxiliary or Survivor Benefits                 $2,003,320

                                  Indirect Costs Claimed by the Arizona Disability Determination
 A-09-04-14010      3/28/05                                                                                      $272,062
                                  Services
                                  Representative Payee Reports Indicating Excess Conserved Funds
 A-13-03-13065      3/28/05                                                                                     $9,852,007
                                  for Supplemental Security Income Recipients

 A-01-04-14085      4/11/05       Disabled Supplemental Security Income Recipients with Earnings           $95,268,520

                                  Individual Representative Payees for the Social Security
 A-09-05-15056      4/27/05                                                                                       $35,628
                                  Administration in the San Francisco Region
                                  Individuals Receiving Benefits Under Multiple Social Security
 A-01-05-25002      4/29/05                                                                                     $9,190,892
                                  Numbers at the Same Address
                                  Administrative Costs Claimed by the New Hampshire Disability
 A-01-05-15012      5/27/05                                                                                       $28,654
                                  Determination Services
                                  Administrative Costs Claimed by the Ohio Bureau of Disability
 A-05-04-14028      5/27/05                                                                                      $132,154
                                  Determination
                                  Indirect Costs Claimed by the Oregon Disability Determination
 A-09-05-15001       6/7/05                                                                                     $3,992,358
                                  Services




                                                                                                        Appendices           •   47
             Semiannual Report to Congress                                                April 1, 2005 – September 30, 2005




                                    Reports with Questioned Costs
                               October 1, 2004 through September 30, 2005
   Audit Number Issue Date                                    Report                                   Dollar Amount
                                  Administrative Costs Claimed by the Alaska Disability
    A-09-05-15025     7/7/05                                                                                      $177,092
                                  Determination Services

    A-01-04-24024    7/26/05      Social Security Administration’s Administrative Finality Rules               $74,668,057


    A-15-05-25045     8/2/05      Independent Living Resource Center of Northeast Florida                          $27,050

                                  Administrative Costs Claimed by the Delaware Disability
    A-13-05-15011    8/19/05                                                                                        $1,100
                                  Determination Services
                                  Administrative Costs Claimed by the Pennsylvania Bureau of
    A-15-04-14080    8/31/05                                                                                      $791,528
                                  Disability Determination

                                         TOTAL:                                                           $374,930,433




48 • Appendices
April 1, 2005 – September 30, 2005                                        SSA Office of the Inspector General




                              Reports with Funds Put to Better Use
                              October 1, 2004 through September 30, 2005
Audit Number Issue Date                                      Report                                   Dollar Amount
                                Family Services, Inc., of Charleston, South Carolina, A Fee-for-
 A-13-04-14002      10/1/04                                                                                        $2,650
                                Service Representative Payee for the Social Security Administration

                                Administrative Costs Claimed by the South Carolina Disability
 A-04-04-14053      10/7/04                                                                                      $160,556
                                Determination Services

                                e Social Security Administration’s Clean-Up of Title II Disability
 A-04-03-13042     10/14/04                                                                                 $87,500,000
                                Insurance Cases with a Workers’ Compensation Offset

                                Individual Representative Payees for the Social Security
 A-02-05-15049      1/31/05                                                                                        $2,844
                                Administration in the New York Region

 A-08-04-14093      3/15/05     Assessment of the Enumeration at Entry Process                                  $3,285,960


 A-01-05-25015      3/28/05     Individuals Receiving Multiple Auxiliary or Survivor Benefits                    $614,336

                                Indirect Costs Claimed by the Arizona Disability Determination
 A-09-04-14010      3/28/05                                                                                      $610,000
                                Services

                                e Social Security Administration’s Controls over the Suspension
 A-04-04-24029      4/12/05                                                                                 $87,505,968
                                of Title XVI Overpayment Collection Efforts

 A-06-03-13078      4/20/05     Social Security Number Cards Issued After Death                                  $720,000

                                Individuals Receiving Benefits Under Multiple Social Security
 A-01-05-25002      4/29/05                                                                                     $1,425,214
                                Numbers at the Same Address

                                Administrative Costs Claimed by the Ohio Bureau of Disability
 A-05-04-14028      5/27/05                                                                                     $1,782,112
                                Determination

                                Administrative Costs Claimed by the Alaska Disability
 A-09-05-15025      7/7/05                                                                                      $1,341,360
                                Determination Services

                                Administrative Costs Claimed by the Pennsylvania Bureau of
 A-15-04-14080      8/31/05                                                                                     $2,151,869
                                Disability Determination

                                e Effectiveness of the Social Security Administration’s Controls
 A-02-05-15079      9/19/05                                                                                      $734,248
                                over Title II Unnegotiated Checks

                                        TOTAL:                                                         $187,837,117




                                                                                                        Appendices           •   49
               Semiannual Report to Congress                                   April 1, 2005 – September 30, 2005




 Appendix C

 Reporting Requirements Under the Omnibus Consolidated
 Appropriations Act for FY 1997
 To meet the requirements of the Omnibus Consolidated Appropriations Act of 1997, P.L. 104-208, we are
 providing requisite data for FY 2005 from the Offices of Investigations and Audit in this report.

 O  I
 We are reporting over $26 million in SSA funds as a result of our investigative activities in this reporting
 period. ese funds are broken down in the table below.


                                           Investigative Activities

                       1st Quarter       2nd Quarter         3rd Quarter     4th Quarter            Total
   Court Ordered
                          $5,221,579            $6,834,108      $5,625,130       $4,611,940        $22,292,757
    Restitution

     Recoveries           $6,534,591            $8,908,096      $9.057,181       $6,408,909        $30,908,777


       Fines                $150,545              $63,586        $117,425         $216,375            $547,931

    Settlements/
                            $146,682             $411,023        $395,636           $92,331         $1,045,672
     Judgments

      TOTAL              $12,053,397           $16,216,813     $15,195,372      $11,329,555        $54,795,137



 O  A
 SSA management has informed us that it has completed implementing recommendations from 5 audit reports
 during this time period valued at over $223 million.

 e Social Security Administration’s Controls over the Suspension of Title XVI
 Overpayment Collection Efforts (A-04-04-24029, 4/12/05)
 We recommended that SSA ensure that all overpayment suspension decisions exceeding established thresholds are
 reviewed and approved by appropriate SSA management officials, as required by the Program Operations Manual
 System. e implemented recommendation is valued at over $11 million.




50 • Appendices
 April 1, 2005 – September 30, 2005                                    SSA Office of the Inspector General




Individuals Receiving Multiple Auxiliary or Survivor Benefits
(A-01-05- 25015, 3/28/05)
We recommended that SSA remind employees to take the necessary action to stop any benefits being paid when
beneficiaries become entitled to other, higher benefits. e implemented recommendation is valued at over $614
thousand.

Use of State Bureaus of Vital Statistics Records to Detect Unreported Marriages
and Divorces (A-09-00-30059, 6/2/03)
We recommended that SSA initiate corrective action, including termination of benefits and recovery of
overpayments, for the 700 unreported marriages and 8 unreported divorces identified during our review. e
implemented recommendations are valued at over $51 million.

Internal Controls Over the Office of Hearings and Appeals Interpreter Services
(A-12-00-10023, 8/8/01)
We recommended that SSA standardize hearing office procedures to ensure that all payments are fully supported
by adequate documentation to include: (a) a record of the foreign language in which the interpreter’s service was
rendered; (b) the claimant’s name; (c) the claimant’s SSN; (d) the interpreter’s signature; (e) a record of the hours
worked and/or date and time the hearing was held; and (f ) a signature from a presiding Office of Hearings and
Appeals official who authorized the hours worked. e implemented recommendation is valued at over $450
thousand.

Improvements Are Needed to Prevent Underpayment for Social Security
Beneficiaries with Earnings Posted after Entitlement (A-13-94-00509, 5/1/95)
We recommended that SSA identify and pay underpayments to all current and noncurrent beneficiaries that
were due benefit increases for post entitlement earnings. e implemented recommendation is valued at about
$160 million.




Appendix D

Significant Management Decisions With Which the Inspector General
Disagrees
ere are no significant management decisions with which the Inspector General disagrees.




                                                                                                     Appendices     •   51
                Semiannual Report to Congress                                       April 1, 2005 – September 30, 2005




   Appendix E

   Collections From Investigations and Audits
   e Omnibus Consolidated Appropriations Act of 1997 (P.L. 104-208) requires us to report additional
   information concerning actual cumulative collections and offsets achieved as a result of OIG activities
   each semiannual period.


   O  I


                Total Restitution Reported by DOJ as Collected for SSA

                         Total Number of
                                                         Court Ordered
                       Individuals Assigned                                      Total Restitution
          FY                                               Restitution
                          Court Ordered                                          Collected by DOJ
                                                         for is Period
                            Restitution
         2003                     567                           $22,354,434                  $2,184,770

         2004                     700                           $24,309,652                  $2,307,487

         2005                     661                           $22,292,757                 $1,439,253a

       TOTAL                     1,928                          $68,956,843                 $5,931,510

   a. Reflects collection for October 1, 2004 – July 31,2005




                         Recovery Actions Based on OI Investigations

                          Total Number of Recovery
          FY                                                          Amount for Recovery
                              Actions Initiated

         2003                            2,442                                $31,515,050

         2004                            1,861                                $32,706,653

         2005                            1,686                                $30,908,777

       TOTAL                             5,989                                $95,130,480




52 • Appendices
  April 1, 2005 – September 30, 2005                                       SSA Office of the Inspector General




O  A
e following chart summarizes SSA’s responses to our recommendations for the recovery or redirection of
questioned and unsupported costs. is information is prepared in coordination with SSA’s management
officials and is current as of September 30, 2005.


                              SSA’s Responses to OIG’s Recommendations
                       Recovery or Redirection of Questioned and Unsupported Costs
            Reports with                                                                     Amount
                             Questioned/            Management       Amount Collected
    FY      Questioned                                                                      Written-Off/         Balance
                           Unsupported Costs        Concurrence      or to be Recovered
               Costs                                                                        Adjustments

   2003          18                $56,602,321        $53,002,556          $21,576,978         $3,709,842      $31,394,168


   2004          19             $1,500,781,845     $1,473,473,313        $107,030,015      $1,389,999,564a       $3,790,550


   2005          24               $374,930,433       $278,967,089        $163,346,599            $590,427     $210,993,407


 TOTAL           61             $1,932,314,599     $1,805,442,958        $291,953,592      $1,394,299,833     $246,178,125

a. is amount includes $1,365,957,300 in adjustments that were contained in the report, Disabled Title II Beneficiaries with
   Earnings Reported on the Master Earnings File (MEF) (A-01-03-13019, 7/12/2004).
   We recommended that SSA review past cases where significant earnings are present on the MEF and no determination
   has been made regarding trial work and/or substantial gainful activity (SGA). SSA agreed, where it is cost beneficial to
   do so and as its resources permit, to review the cases with significant earnings on the MEF where no determination has
   been made regarding trial work/SGA and take action. However, SSA subsequently informed us that it would not review
   the cases.




Appendix F

Significant Monetary Recommendations From Prior FYs for Which
Corrective Actions Have Not Been Completed
ere are no significant monetary recommendations from prior FYs for which corrective actions have
not been completed.




                                                                                                            Appendices     •   53
             Semiannual Report to Congress                                         April 1, 2005 – September 30, 2005




      Appendix G

      Significant Non-Monetary Recommendations From Prior FYs for
      Which Corrective Actions Have Not Been Completed
      Work Activity for SSNs Assigned for Nonwork Purposes in the State of
      Utah (A-14-01-11048, 3/29/02)
      Recommendation: We recommended that SSA work with the Immigration and Naturalization Service
      (INS), now incorporated into DHS, to resolve data compatibility problems associated with the nonwork
      earnings file provided by SSA and involve employees familiar with the problem.
      Agency Response: SSA agreed with the recommendation.
      Corrective Action: Under the direction of the Enumeration Response Team, a subgroup is currently
      working on a proposal to expand the SSN electronic audit trail to capture information that could also
      be useful in resolving data compatibility problems between SSA and DHS. At this time, no milestone
      activities have been determined.
      In the interim, SSA has implemented the “SS-5 Assistant” software program. e SS-5 Assistant Release 2
      is a Microsoft Access-based application that has been developed to support processing of SSN applications.
      Working in conjunction with the existing Modernized Enumeration System, it assists users to correctly
      process applications, including electronically capturing evidence (such as document numbers, issue and
      expiration dates) and interfacing with DHS verification data.
      Recommendation: We recommended that SSA work to establish an agreement with the Office of Child
      Support Enforcement (OCSE) whereby SSA submits nonwork SSN records to OCSE each quarter, and
      OCSE associates quarterly earnings with the records before returning them to SSA.
      Agency Response: SSA believes this recommendation may have merit.
      Corrective Action: SSA no longer issues an SSN solely for the purpose of securing a driver’s license or
      motor vehicle registration. is policy change closes opportunities for illegal work. Also, SSA is continuing
      to work with DHS on a number of fronts to improve the enumeration process. Once SSA has assessed
      the impact of these activities, SSA will revisit this recommendation and determine how to best proceed
      within the constraints of SSA’s disclosure/privacy regulations and policies on working with and sharing
      information with OCSE and DHS for the purposes of identifying persons who work illegally and employers
      who hire such persons.
      Recommendation: We recommended that SSA use quarterly wage information or other suitable methods
      to prevent the issuance of replacement Social Security cards when there is evidence of illegal employment
      and to advise employers of nonwork status when verifying employee SSNs.
      Agency Response: SSA agreed that there should be tighter controls for issuing replacement cards to aliens
      who are not authorized to work.
      Corrective Action: SSA will investigate the best method for tightening controls, including the possibility
      of issuing revised instructions and reminders on the policy on issuing replacement cards and on updating
      Numident records. SSA will also explore appropriate mechanisms for helping DHS monitor employment



54 • Appendices
April 1, 2005 – September 30, 2005                                 SSA Office of the Inspector General




 authorization. SSA will also be implementing the provisions of the Intelligence Reform and Terrorism
 Prevention Act of 2005 related to limitations on replacement cards.
 Recommendation: We recommended that SSA match the quarterly nonwork earnings file with the ESF to
 identify and report to DHS employers who consistently hire people who are not authorized for employment
 and individuals who use, for employment, nonwork SSNs and false identities.
 Agency Response: SSA believed the recommendation may have merit.
 Corrective Action: SSA will revisit the recommendation once an assessment of the impact of previously
 referenced activities that are underway or planned is complete.

 Payments Made to Selected Representative Payees after the Deaths of Social
 Security Beneficiaries (A-13-01-21028, 9/18/01)
 Recommendation: We recommended that SSA resolve beneficiary date of death discrepancies we identified
 and develop and implement procedures for the timely and accurate recordation of dates of death.
 Agency Response: SSA agreed with the recommendation.
 Corrective Action: SSA has already begun to correct the records containing date of death discrepancies
 and will review the procedures to prevent future occurrences of this nature. In addition, a new Death Alert,
 Control and Update System (DACUS) process, which will identify deceased representative payees in the
 Representative Payee System, will be implemented in the DACUS Release II, which is not yet scheduled
 due to other systems priorities.

 Approval of Claimant Representatives and Fees Paid to Attorneys
 (A-12-00-10027, 8/21/01)
 Recommendation: We recommended that SSA collect each attorney’s SSN, name and address information
 so that IRS Form 1099 can be issued to attorneys.
 Agency Response: SSA’s Executive Task Force is addressing the issue of providing IRS Form 1099 to
 attorneys and is developing a business process for issuing these forms.
 Corrective Action: SSA must develop the automation support necessary to meet the Internal Revenue
 Code requirement that SSA issue Form-1099s to attorneys who receive attorney fees of $600 or more
 in a taxable year. e Attorney Fee Task Force has established a revised target of issuing Form-1099s to
 attorneys to January 2008 (representing attorney fees received during TY 2007). SSA has initiated planning
 and analysis required for development of the systems enhancements to collect and process the appropriate
 attorney data required for issuing the Form-1099s. Implementation of the attorney database is planned
 for the fall of 2006.




                                                                                                 Appendices     •   55
                Semiannual Report to Congress                                    April 1, 2005 – September 30, 2005


                                                Glossary of Acronyms
                     Abbreviation                                   Definition
                AC                       Appeals Council
                ALJ                      Administrative Law Judge
                CDI                      Cooperative Disability Investigation
                CE                       Consultative Examination
                CMP                      Civil Monetary Penalty
                CY                       Calendar Year
                DAB                      Departmental Appeals Board
                DACUS                    Death Alert, Control and Update System
                DDS                      Disability Determination Service
                DHS                      Department of Homeland Security
                DI                       Disability Insurance
                DoD                      Department of Defense
                DOJ                      Department of Justice
                DSD                      DDS Security Document
                ERC                      Employee Resource Center
                ESF                      Earnings Suspense File
                FISMA                    Federal Information Security Management Act of 2002
                FO                       Field Office
                FY                       Fiscal Year
                HO                       Hearing Office
                INS                      Immigration and Naturalization Service
                IO                       Immediate Office
                IRS                      Internal Revenue Service
                IT                       Information Technology
                MEF                      Master Earnings File
                MHP                      Missouri State Highway Patrol
                NICMS                    National Investigative Case Management System
                NWALIEN                  Nonwork Alien




56 • Glossary
April 1, 2005 – September 30, 2005                             SSA Office of the Inspector General




    Abbreviation                                       Definition
 OA                         Office of Audit
 OASDI                      Old-Age, Survivors, and Disability Insurance
 OCCIG                      Office of the Chief Counsel to the Inspector General
 OCSE                       Office of Child Support Enforcement
 OEO                        Office of Executive Operations
 OHA                        Office of Hearings and Appeals
 OI                         Office of Investigations
 OIG                        Office of the Inspector General
 OMB                        Office of Management and Budget
 OQAPR                      Office of Quality Assurance and Professional Responsibility
 PER                        Pre-Effectuation Review
 P.L.                       Public Law
 RIB                        Retirement Insurance Benefits
 SGA                        Substantial Gainful Activity
 SSA                        Social Security Administration
 SSI                        Supplemental Security Income
 SSN                        Social Security Number
 the Act                    Social Security Act
 TY                         Tax Year
 U.S.A., Inc                United Seniors Association, Inc.
 USPIS                      United States Postal Inspection Service
 WC                         Workers’ Compensation
 WIB                        Widow’s Insurance Benefits




                                                                                                     Glossary •   57
Social Security Administration
Office Of e Inspector General

                                                                  How to Report Fraud
             Mission Statement                  The SSA OIG Fraud Hotline offers a means for you to provide
    By conducting independent and objective     information on suspected fraud, waste, and abuse. If you know of
    audits, evaluations, and investigations,    current or potentially illegal or improper activities involving SSA
    we improve the SSA programs and             programs or personnel, we encourage you to contact the SSA OIG
    operations and protect them against         Fraud Hotline.
    fraud, waste, and abuse. We provide
    timely, useful, and reliable information
    and advice to Administration officials,
                                                         Call       1-800-269-0271
    Congress, and the public.
                                                        Write       Social Security Administration
              Vision and Values                                     Office of the Inspector General
    We are agents of positive change striving                       Attention: SSA Fraud Hotline
    for continuous improvement in SSA’s                             P. O. Box 17768
    programs, operations, and management                            Baltimore, MD 21235
    by proactively seeking new ways to
    prevent and deter fraud, waste, and                   Fax       410-597-0118
    abuse. We are committed to integrity and
    to achieving excellence by supporting an
    environment that encourages employee              Internet      www.socialsecurity.gov/oig
    development and retention, and fosters
    diversity and innovation, while providing    To obtain additional copies of this report please visit our website
    a valuable public service.                                    at www.socialsecurity.gov/oig

                                                                       SSA Pub. No. 85-007
                                                                     Published November 2005
             Report Fraud,
          Waste, and Abuse

            1-800-269-0271




                                THE
                                ROAD
www.socialsecurity.gov/oig      AHEAD
 SSA OIG Pub. No. 85-007
Published November 2005

                             Social Security Administration ~ Office of the Inspector General
                                              Semiannual Report To Congress
                                               April 1– September 30, 2005
